<html>
<title> - INDIAN EDUCATION: DID THE NO CHILD LEFT BEHIND ACT LEAVE INDIAN STUDENTS BEHIND?</title>
<body><pre>[Senate Hearing 111-713]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-713
 
    INDIAN EDUCATION: DID THE NO CHILD LEFT BEHIND ACT LEAVE INDIAN 
                            STUDENTS BEHIND? 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 17, 2010

                               __________

         Printed for the use of the Committee on Indian Affairs


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

62-197 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
AL FRANKEN, Minnesota
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel


























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 17, 2010....................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Johanns.....................................     4
Statement of Senator Johnson.....................................     5
    Prepared statement...........................................     5
Statement of Senator Murkowski...................................    24
    Prepared statement...........................................    26
    Floor statement..............................................    27
Statement of Senator Tester......................................     4
Statement of Senator Udall.......................................    20
    Prepared statement...........................................    22

                               Witnesses

Beaulieu, Dr. David, Professor of Education Policy and Director 
  of the Electa Quinney Institute for American Indian Education, 
  University of Wisconsin........................................    46
    Prepared statement...........................................    48
Bowers, Mariah, Member, Yurok Tribe; Sophomore, Southern Oregon 
  University.....................................................    54
    Prepared statement...........................................    57
Moore, Keith, Director, Bureau of Indian Education, U.S. 
  Department of the Interior.....................................     6
    Prepared statement...........................................     9
Oatman-Wak Wak, Mary Jane, President-Elect, National Indian 
  Education Association..........................................    39
    Prepared statement...........................................    41
Rose, Charles P., General Counsel, U.S. Department of Education..    11
    Prepared statement...........................................    13
Smith, Hon. Chad, Principal Chief, Cherokee Nation...............    29
    Prepared statement...........................................    31

                                Appendix

Bordeaux, Dr. Roger, Superintendent, United Auburn Indian 
  Community School; Executive Director, Association of Community 
  Tribal Schools Inc. (ACTS), prepared statement with attachments    72
Fox, Dr. Sandra, Oglala Lakota, prepared statement...............    85
Haskell Indian Nations University Higher Education Workforce 
  Project, BIE--April 17-19, 2007, report........................   113
Montana Indian Education Association, prepared statement.........    69
Montana Office of Public Instruction, prepared statement.........    65
O'Neill, Gloria, President/CEO, Cook Inlet Tribal Council (CITC), 
  prepared statement.............................................    65
Reauthorization recommendations for ESEA........................ 91-109
Response to written questions submitted by Hon. John Barrasso to:
    Charles P. Rose..............................................   189
    Hon. Chad Smith..............................................   191
Standing Rock Sioux Nation Educational Enactment Draft...........   110
Washington State Tribal Leader's Congress on Education, prepared 
  statement......................................................    89
Wilson, Ryan, Oglala Lakota; President, National Alliance to Save 
  Native Languages, prepared statement with attachment...........    76


    INDIAN EDUCATION: DID THE NO CHILD LEFT BEHIND ACT LEAVE INDIAN 
                            STUDENTS BEHIND?

                              ----------                              


                        THURSDAY, JUNE 17, 2010


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Let me call the Committee to order.
    This is an oversight hearing on Indian education entitled 
Did the No Child Left Behind Act Leave Indian Students Behind?
    Today, the Committee is going to hold a discussion on 
Indian education and the reauthorization of the No Child Left 
Behind Act. It expired in 2008 and Congress will soon consider 
the reauthorization of that law.
    So the purpose of today's hearing is to ensure that the 
education of Native American students is made a priority in 
that new law. The state of education in Indian Country today is 
I believe at a crisis point. We have some charts to show that 
today less than half of all Indian students graduate from high 
school and only 13 percent receive a college degree.
    We are losing half of our Indian students before they 
graduate from high school. This is compared to 76 percent of 
their white counterparts who do graduate from high school. It 
is a very, very substantial difference.
    As you can see on chart two, this is also a significant 
issue in my home State of North Dakota; 40 percent of the 
American Indians graduate from high school in North Dakota, 
compared to 84 percent of their white counterparts in my State. 
I venture to say that is likely the case in most States in our 
Country.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    This statistic is ignored at our peril. We simply cannot 
ignore it. The Federal Government, I believe, has a trust 
responsibility to provide education to Indian students. We have 
signed treaties, made promises, and this is something that we 
have to deal with.
    Throughout our Government's history, we have engaged with 
tribes and said that schools, teachers and education would be 
provided in return for the hundreds of millions of acres of 
what had been their tribal homelands.
    Now, I know there are so many factors that impact how well 
a student performs in school, but at the core is the curriculum 
that is taught and how well it reaches the students. Some of 
the major criticisms we have heard from tribes on the No Child 
Left Behind Act is that it had a disproportionately negative 
impact on high poverty schools. It was too rigid, required 
``teaching to the test,'' and it didn't allow flexibility in 
teaching.
    The tribes I have talked to about this are not seeking 
lower standards for Indian students. As all of us on the 
Committee know through our interactions at tribal schools and 
universities, Indian students are as intelligent, resourceful, 
creative as any students in this Country who are graduating and 
going on to college. But it seems to me that they are not given 
the same opportunities and not given the same tools with which 
to succeed in this education system.
    The one size fits all approach to educating Indian students 
just appears to me not to be working. We need more flexibility 
in the system so that tribes can address the needs of their 
students in a way that is relevant to them, to their culture, 
to their community, while still meeting or exceeding national 
standards.
    There are talented and dedicated teachers and 
administrators both in the BIA and the public system who work 
hard every day to provide a good education for their students. 
That is why we have to get the next education bill right and 
give tribes, students and parents the right resources to build 
the next generation of productive tribal citizens and tribal 
leaders.
    Today, we are going to hear from the Department of 
Education and the Department of Interior regarding their 
recommendations for the next reauthorization and how they plan 
to include tribal governments and tribes in that bill.
    I am encouraged at the level of outreach that has occurred 
so far by the Administration. I know there have been several 
tribal consultations already, and they have heard and received 
information from tribes on these priorities.
    We will also hear from our new Bureau of Indian Education 
Director today, Mr. Moore. I know that Keith Moore has just 
started work last week. We welcome you today to the Committee. 
I am pleased that he is here to provide testimony.
    Let me also say I fully understand, aside from the things I 
have just described, the issues of poverty, the issues of 
broken families and all the related issues that affect children 
also play a significant role in the statistics that I have just 
described. But it is heartbreaking to me to go to schools that 
are in disrepair, schools in which children are sitting at 
desks that are one inch apart, to schools in which there is 
overcrowding.
    And in so many other circumstances it means that a fourth 
grader or a third grader comes out of that circumstance, going 
to school in a building that has been condemned. And I have 
been to those buildings. That third or fourth grader is not 
going to compete on an even level with a young child that is 
going to a school with 15 classmates in a modern, new school.
    So we need to get this right. We need to keep our promise, 
meet our trust responsibilities. That is why we are holding 
these hearings today.
    Let me ask my colleagues if they have any comments with 
which to open the hearing. I don't know who was here first 
today.
    Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you very much, Mr. Chairman. I will 
be very brief because I think you made the point.
    I just wanted to underscore that with one statistic from my 
State. I look at that 50 percent rate and it has got to be 
heartbreaking to everybody. But in fact during a recent school 
year, one of our schools graduated 12 students, while losing 
43. It had a 22.6 percent graduation rate. It doubled the next 
year, but is still performing below the national average.
    So I can't compliment you enough, Mr. Chairman, for taking 
this issue on. I see the discrepancy that exists here and 
something just absolutely needs to be done with these kids not 
graduating. There is truly no hope. You just kind of wonder 
what happens next in their life.
    So I appreciate the opportunity to be here. Thanks for the 
chance to say a word or two.
    The Chairman. Senator Johanns, thank you very much.
    Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes, thank you, Mr. Chairman.
    I want to echo the remarks of Senator Johanns. I appreciate 
your having this hearing and I appreciate the witnesses coming 
today.
    Everybody in this room knows how critical education is. If 
we are going to break the cycle of poverty in Indian Country, 
we have got to have a good education system. And it amounts to 
a lot more than just No Child Left Behind. I can tell you that 
I have never said a good word about No Child Left Behind. 
Having teachers teach to tests, making teachers into 
bureaucrats, not teaching kids to think, all those are the kind 
of things that NCLB brings to the table.
    It did do one good thing, though. It did, in Montana, show 
the achievement gap of American Indian kids. And by the way, it 
is a very, very obvious gap and it applies to Native American 
kids across the State of Montana.
    So what do we have to do to be successful? We have to have 
good teachers. We have a hard time recruiting teachers in 
Indian Country. We have to figure out how to do that. We have 
to have good schools. I was at a school in Indian Country, I 
won't say which one, not too long ago. It was a nice looking 
school, appeared to be a nice school. It had good kids, as good 
kids as anywhere in the Country. I walked into the bathroom and 
there was no toilet paper. It was dirty. It was dingy. It was 
crummy. And quite frankly, it was all of the above.
    And there was an administrator failing right there, I will 
tell you that. The person should have been looking for work 
that is all there is to that.
    But we also need something else. We need to have families 
support their students. Oftentimes, we look at this as being a 
Federal Government issue and it is. We have our trust 
responsibilities. But unless we have community support for 
schools, we are sunk. We have to figure out a way to get that 
as a critical component of our schools across the board, but 
especially in Indian Country because poverty is so rampant.
    I could go on and on about education and how important it 
is. We all know it. In Montana, we are somewhat lucky: 98 
percent of Indian kids attend public schools, but a fair number 
of those kids also drop out. The top ranking person at the 
Department of Education is a member of the Blackfeet Tribe, 
Denise Juneau. Denise knows education across the board very 
well. She also knows the challenges in Indian Country. She is 
going to be a pleasure to work with to try to break this cycle 
of education not meeting the needs in Indian Country.
    I can't stress enough that we need teachers. We need 
quality schools. We need clean schools. We need good 
administrators. We need counselors, social workers, mental 
health providers. The list goes on and on. And as important as 
any of those is we need parental involvement in these programs. 
It is critically important.
    I once again want to thank the Chairman for holding this 
meeting. I look forward to hearing what the witnesses have to 
say and the questions that come afterwards.
    Thank you.
    The Chairman. Senator Tester, thank you very much.
    Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Mr. Chairman, for holding this 
very important hearing.
    I would like to especially welcome the new Director of the 
Bureau of Indian Education, Keith Moore, from my home State of 
South Dakota. In fact, he most recently had a position from my 
alma mater, the University of South Dakota. It is good to know 
that someone with first-hand knowledge of the situation we face 
in South Dakota has been selected for this very important 
position.
    I can submit my full statement for the record.
    [The prepared statement of Senator Johnson follows:]

 Prepared Statement of Hon. Tim Johnson, U.S. Senator from South Dakota
    Good afternoon. Thank you, Mr. Chairman for holding this very 
important hearing. I would like to especially welcome the new Director 
of the Bureau of Indian Education, Keith Moore, from my home state of 
South Dakota. It is good to know that someone with firsthand knowledge 
of the situation we face in South Dakota has been selected for this 
very important position.
    The education of our Indian students is a top priority for me and 
for the Tribes in South Dakota. I believe that education is the silver 
bullet to solving many of the problems that we face not just in Indian 
Country but across South Dakota and the Nation. We must do our best to 
provide our students with the best possible learning environment that 
includes safe schools, well-qualified teachers and more attention to 
the individual needs of Indian students.
    The ability of all students to succeed in school depends on many 
factors outside of the school building, including access to nutritious 
food, a safe and healthy home environment, access to mental health 
resources, and afterschool activities. I am committed to working with 
tribal communities on all of these issues. Two weeks ago, I sat down 
with educators from the Pine Ridge Indian Reservation and listened to 
the challenges that they face there.
    Unfortunately, many of our schools in Indian Country are not 
meeting their Adequate Yearly Progress benchmarks. I look forward to 
learning from our witnesses what might be done to enhance the strengths 
of our students and accurately measure their academic successes. I want 
to thank you again, Mr. Chairman, for holding this hearing today.

    The Chairman. Senator Johnson, thank you very much.
    Panel one today contains Mr. Charles Rose, General Counsel, 
U.S. Department of Education; and Mr. Keith Moore, the Director 
of the Bureau of Indian Education at the U.S. Department of the 
Interior.
    As I have indicated, Keith Moore is brand new to his job 
and been on the beat for one week, but we are nonetheless 
pleased you are here. Why don't we begin with you, Mr. Moore, 
and then we will hear from Mr. Rose and ask questions.
    Mr. Moore, you may proceed.

STATEMENT OF KEITH MOORE, DIRECTOR, BUREAU OF INDIAN EDUCATION, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Moore. Thank you very much.
    Mr. Chairman, fellow Members of the Committee, it is an 
honor to be here. It is quite humbling actually to be here and 
serve in this capacity.
    As you said, my name is Keith Moore, the new Bureau of 
Indian Education Director and also Sicangu Oyate Lakota from 
the great Rosebud Sioux Tribe in South Dakota. I just want to 
thank you for allowing us to be a part of the hearing today and 
to provide testimony on behalf of the Department of Interior on 
No Child Left Behind and how it has affected the schools that 
we fund and the students that we serve.
    Let me very briefly today tell you a little bit about who I 
am. I would like to take just a moment or two to do that.
    I grew up on the Rosebud Indian Reservation. My mother was 
native. My father was not native. I grew up on the reservation 
until I was eight years old and we left the reservation. Made a 
tough decision, my parents did, when I was a youngster. Some of 
my brothers, some of the issues that Senator Dorgan eloquently 
talked about, many of those issues my family personally faced. 
My family made a decision to move to a border community where 
my non-native family was from. I grew up in a border community 
called Lyman County in South Dakota in between Lower Brule/Crow 
Creek and Rosebud Reservations.
    That was in 1975, and if you know your history, it was the 
middle of the American Indian Movement in South Dakota and it 
wasn't very friendly to move to a border community during those 
years. But as I look back on them, they are very formative 
years. They molded me in a lot of ways, both good and bad, and 
I think I hopefully have overcome the bad in the sense of 
trying to be a level-headed individual that is working on 
issues on behalf of Indian students today across this Country.
    I grew up there in that border community, poured myself 
into athletics because it was a way to be a normal kid. I fit 
in through athletics. And once I figured that out, I really 
poured my energies into that. I earned my way to college on a 
basketball scholarship to Northern State University in 
Aberdeen, South Dakota.
    I finished up college and coached and taught throughout the 
State for a decade and then went back for a couple of advanced 
degrees. I became a school administrator and then really did 
some soul searching in wanting to really work on Indian issues 
in South Dakota, and was offered the position as the State 
Indian Education Director in South Dakota.
    I directed that office for a number of years. It was a 
great experience, before moving to Senator Johnson's alma 
mater, the University of South Dakota, to be the Chief 
Diversity Officer to work on recruiting, retaining and building 
a framework of success for native students in South Dakota.
    I am married, going on 11 years, and have four little 
girls, which was the toughest part of moving to D.C., moving 
those little girls away from home. They are eight, six, four 
and two.
    So real quick, I just want to take a moment to introduce 
myself to you and again say it is an honor to be here today. It 
is an honor to serve on behalf of Indian students across this 
Country and I hope to make the Bureau a very responsive and 
well-oiled machine when we are talking about serving those 
youngsters across this Country.
    Real quickly to move into the challenges of No Child Left 
Behind and what we feel in the BIE that we have learned over 
the years with No Child Left Behind.
    First of all, as you know, all States had to develop a 
detailed State accountability workbook that was passed and 
okayed from the U.S. Department of Education back when No Child 
Left Behind started. That process was no different for the BIE. 
The BIE went through a negotiated rulemaking process and the 
Secretary of Interior at that time decided that the best course 
of action was to follow the State plans. So at that time, the 
BIE followed 23 different States, followed State standards, 
took State assessments and went that path.
    That is really complicated for the Bureau of Indian 
Education. States are able to follow one system with their 
standards and assessment. The BIE looks at 23 different 
standards and assessments in order to look at student 
achievement.
    It is very difficult to compare students. It is very 
difficult to take a look at your students apples to apples and 
see how those students are doing when you are talking about 
students all over the board with standards and assessments, 
different AYP cutoff scores, all of those sorts of things, not 
to mention that obviously State standards, State assessments 
didn't take into account tribal input very well through that 
process.
    So as we take a look at those challenges and move forward 
and decide what the BIE should do moving forward, we are 
looking to respond to these issues with NCLB by initiating a 
process to develop a single set of standards and assessment 
that would apply to all BIE schools.
    We feel that will obviously better meet the unique 
educational needs of Indian students across this Country and it 
will require consultation and working closely with tribes and 
educators. That must also accommodate tribes' wishes to develop 
their own standards and assessments as well, if they wish to do 
that. So it is one thing that we really feel that we have to 
move forward with as we talk about reauthorization.
    But despite these many challenges, we do feel that we have 
seen some improvement over the last few years. From the 2007-
2008 school year to the 2008-2009 school year, we have seen an 
8 percent increase in our schools in terms of meeting AYP. Now 
obviously we are not happy with where we are at. We know we 
need to improve even more beyond that. And a number of you 
gentlemen here and Committee Members expressed that in your 
statistics earlier.
    So as ESEA reauthorization is contemplated, we just hope 
that the unique position of the BIE should not be forgotten in 
the process. We want to be a part of that process. We want to 
work closely with the U.S. Department of Education through this 
ESEA reauthorization. It is important that BIE's role is 
defined very well, in a manner consistent with the 
Administration's priorities and policies of self-determination 
for our tribal groups across this Country.
    So in conclusion today, let me just say the reauthorization 
of ESEA represents a unique opportunity, I believe, for us to 
ensure that this Act works for American Indian and Alaska 
Native communities across this Country. The reauthorized ESEA 
can support the self-determination of Indian tribes and create 
an educational system that values tribal cultures and 
languages.
    That is a part that we really feel has been left out as we 
talk about NCLB is the respect paid to our tribal cultures, our 
languages, the unique needs that our students need inside 
standards, the values that we have as a people. All of those 
things are missing right now in NCLB and are vital for our 
students' feeling valued and welcomed and comfortable in school 
systems.
    In closing, let me just say thank you again for providing 
the BIE, the Department of the Interior, the chance here today 
to testify. We are committed, again, to working with you folks 
here on the Committee, the U.S. Department of Education folks 
like Charlie Rose sitting next to me, and with the tribes and 
with the other departments across fences in order to meet the 
needs that it is going to take.
    So as reauthorization of ESEA moves forward and through 
Congress, we look forward to working with all parties in order 
to make a difference for our Indian students across this 
Country.
    So I am happy to answer questions at the end of this 
Committee hearing, and again thanks a ton, and I can't tell you 
how honored I am to be here. As a kid that is growing up in 
Indian Country out in a rural State of this Country, and just 
as a youngster when you are growing up in those situations, you 
don't imagine some day you are going to sit here in front of 
the Senate Indian Affairs Committee and talk about Indian 
education across this Country. It gives me goose bumps to even 
say that.
    And let me lastly say also I want to thank Senator Johnson, 
obviously, from our great State, the years of service that he 
has given in not only Indian education, but Indian issues 
period across this Country. I can't thank him enough as well.
    So thank you.
    [The prepared statement of Mr. Moore follows:]

     Prepared Statement of Keith Moore, Director, Bureau of Indian 
               Education, U.S. Department of the Interior
    Good afternoon Mr. Chairman, Mr. Vice Chairman, and members of the 
Committee. My name is Keith Moore and I am the newly appointed Director 
of the Bureau of Indian Education (BIE). Thank you for the opportunity 
to provide the Department of the Interior's views on how the No Child 
Left Behind Act (NCLB) has affected the schools we fund and the 
students we serve. The Administration is committed to providing high-
quality educational opportunities for approximately 42,000 students who 
are educated in BIE-funded elementary and secondary schools throughout 
the country.
Background
    The BIE operates a Federal school system for Indian students. The 
BIE funds 183 facilities on 64 reservations in 23 States, consisting of 
121 grant schools and 3 contract schools controlled by tribes, and 59 
schools directly operated by the BIE. In addition, the BIE operates two 
postsecondary institutions, Haskell Indian Nations University and 
Southwestern Indian Polytechnic Institute, with student populations for 
the fall through the summer semesters for 2009/2010 of 2,405 and 1,818, 
respectively. The BIE also provides funds for 26 Tribal Colleges and 
Universities (TCUs) and two tribal technical colleges.
    Federal funding for the education of American Indian students comes 
from both the Department of the Interior and the Department of 
Education. The 183 elementary and secondary schools funded by BIE 
educate approximately 42,000 students, or approximately 7 percent of 
the total American Indian and Alaska Native student population in the 
United States. The great majority (over 90 percent) of American Indian 
and Alaska Native children are educated in public schools.
    In 2006, the Assistant Secretary-Indian Affairs established the 
BIE. Formerly known as the Office of Indian Education Programs, the BIE 
was renamed and reorganized on August 29, 2006, to reflect its 
importance in the organizational structure of the Office of the 
Assistant Secretary-Indian Affairs. The BIE is headed by a Director, 
who is responsible for the line direction and management of all 
education functions, including the formation of policies and 
procedures, the supervision of all program activities and the 
expenditure of funds appropriated for education functions.
    There have been several major legislative actions that affected the 
education of American Indians since the Snyder Act of 1921. First, the 
Indian Reorganization Act of 1934 supported the teaching of Indian 
history and culture in Bureau-funded schools (until then it had been 
Federal policy to acculturate and assimilate Indian people through a 
boarding school system). While this was the stated purpose, American 
Indian students attending Bureau schools continued to experience 
assimilation-based education for quite some time. Second, the Indian 
Self-Determination and Education Assistance Act of 1975 (P.L. 93-638) 
provided authority for federally recognized tribes to contract with the 
Secretary to operate Bureau-funded schools. The Education Amendments 
Act of 1978 (P.L. 95-561) and further technical amendments (Public Laws 
98-511, 99-99, and 100-297) provided funds directly to tribally-
operated schools, empowered Indian school boards, encouraged local 
hiring of teachers and staff, and established a direct line of 
authority between the Education Director and the Assistant Secretary 
for Indian Affairs. The No Child Left Behind Act of 2001 (NCLB) (P.L. 
107-110) brought additional requirements to the schools by holding them 
accountable for improving their students' academic performance.
    As stated in Title 25 CFR Part 32.3, BIE's mission is to provide 
quality education opportunities from early childhood through life in 
accordance with a tribe's needs for cultural and economic well-being, 
in keeping with the wide diversity of Indian tribes and Alaska Native 
villages as distinct cultural and governmental entities. Further, the 
BIE is to take into consideration the whole person by taking into 
account the spiritual, mental, physical, and cultural aspects of the 
individual within his or her family and tribal or village context. The 
BIE school system employs thousands of teachers, administrators, and 
support personnel, while many more work in tribal school systems.
    Assistant Secretary Echo Hawk stated in his February 25, 2010 
testimony, ``One of our top priorities is to improve Indian Education 
and provide quality educational opportunities'' to Native American 
students. BIE is committed to taking active measures to improve 
learning conditions throughout Indian Country. Some of our initiatives 
include Safe and Secure Schools, High School Excellence, Strengthening 
and Sustaining the Postsecondary Program, the System of Support, and 
engaging in partnerships.
    In January of this past year, Secretaries Salazar and Duncan hosted 
a meeting with Indian education experts to discuss how to improve 
Indian education. Two of the major outcomes of that meeting were 
renewed focus on BIE and strengthened collaboration between the 
Department of the Interior and the Department of Education. 
Collaboration between the Departments has been especially strong, with 
the Department of the Interior participating in the Department of 
Education's regional l consultations and several joint initiatives.
Challenges of No Child Left Behind
    A key challenge for the BIE, like much of America, has been the 
implementation of NCLB. Educators have found many problems with NCLB. 
The accountability system labeled schools as failing even when their 
students were making real gains and it prescribed the same 
interventions for all schools that did not make adequate yearly 
progress. It allowed the lowest-performing schools to stagnate, and did 
not provide any incentives for success. And it ignored much of the wide 
variety of data that schools should consider when determining how to 
improve. These challenges apply across the country, and BIE schools are 
no exception.
    In compliance with NCLB, State education officials developed 
detailed State accountability plans for approval by the U.S. Department 
of Education. In its capacity of administering the BIE schools, the BIE 
also developed a Consolidated State Application Accountability 
Workbook. Through a negotiated rulemaking process, the Secretary of the 
Interior determined that BIE-funded schools would use the State 
assessment systems and standards of the 23 States in which the schools 
were located. Unlike States, which use a single assessment system, BIE 
uses 23 different State assessments. This complex system has presented 
a major challenge for the BIE and BIE-funded schools. Other challenges 
often voiced by Indian educators, parents, and tribal leaders are that 
NCLB has diminished American Indian cultures and languages, and that 
NCLB does not address the unique needs of tribal communities, 
especially in rural areas.
    After thorough review of this policy and responding to issues 
raised by tribes, BIE is initiating the process to develop a single set 
of standards and assessments that would apply to all BIE schools and 
that will better meet the unique educational needs of Indian students. 
This will require consultation with tribes and educators, and must 
accommodate those tribes wishing to develop their own standards and 
assessments.
    Despite these many challenges, the BIE is making strides in 
improving Indian education. We have seen an increase of 8.09 percent in 
the number of BIE-funded schools meeting adequate yearly progress (AYP) 
from school year 2007-2008 to 2008-2009, but we are still far from 
achieving our goals. This Administration is deeply committed to moving 
things in the right direction.
    As ESEA reauthorization is contemplated, the unique position of BIE 
should not be forgotten. As a federally run school system operating 
throughout Indian country and in 23 states, BIE must perform many 
functions and roles, including that of LEA or SEA, depending on the 
particular provision of the Act. These functions are sometimes not 
clearly defined by the statute. It is important that BIE's role is 
defined in a manner consistent with the Administration's priorities and 
policies of self-determination.
Conclusion
    Education in the United States is primarily a State and local 
responsibility. Historically, tribal communities have not been afforded 
appropriate control over education in their own communities. Outside 
interests, including the Federal Government, have historically imposed 
their will on tribal communities and defined the futures of Indian 
communities through their children.
    Reauthorization of ESEA represents a unique opportunity to ensure 
that the Act works for American Indian and Alaska Native communities. 
The reauthorized ESEA can support the self-determination of Indian 
tribes and create an educational system that values tribal cultures and 
languages.
    The BIE is partnering with tribal nations to create an education 
system that supports academic achievement, accountability, safe 
learning environments, student growth, tribal control, and the teaching 
of tribal cultures and languages.
    Thank you for providing the BIE this opportunity to testify. We are 
committed to working with this Committee, with the tribes and with the 
Department of Education as the reauthorization of ESEA moves forward 
through Congress.
    I am happy to answer any questions the Committee may have.

    The Chairman. Mr. Moore, thank you very much. I hope it 
never gets old for you to appear here.
    [Laughter.]
    The Chairman. But I can tell you are excited about the new 
challenges. I think because you are brand new, I think it was 
helpful for our Committee to hear a little about your 
background, who you are, where you came from. I appreciate your 
doing that at the start of your testimony.
    Next, we will hear from Mr. Charles Rose, who is the 
General Counsel of the U.S. Department of Education.
    Mr. Rose, thank you and thanks for your work. We are 
anxious to hear your comments.

STATEMENT OF CHARLES P. ROSE, GENERAL COUNSEL, U.S. DEPARTMENT 
                          OF EDUCATION

    Mr. Rose. Thank you very much, Mr. Chairman.
    Again, my name is Charles Rose and I have the privilege of 
serving as the General Counsel for the U.S. Department of 
Education. On behalf of Secretary Duncan, I would like to thank 
Senator Dorgan and the Committee for the opportunity to testify 
today regarding one of our Nation's most underserved student 
populations, American Indian and Alaska Native students.
    On a personal note, this is the first time I have had the 
opportunity to testify before a Senate Committee. I came here 
13 months ago after confirmed by the Senate, and I was prior to 
coming here a lawyer in Chicago who represented school boards 
and municipalities across the State of Illinois. So it is a 
privilege for me to be here in front of you today, and it is 
equally a privilege to be here with Mr. Moore.
    One of the pleasures I have had in the last 13 months is 
meeting and coming to know Mr. Moore and it is an honor to be 
here with you today as well.
    Because this Committee is intimately familiar with the 
history between Indian peoples and the Federal Government, 
there is no need for me to recount that history in any great 
detail. Still, it is important to acknowledge that history in 
order to avoid repeating past mistakes, especially in the area 
of education.
    Over a century ago, the U.S. Government used education as a 
weapon in its war against tribes. It was a means to achieve a 
policy aimed at assimilating Indian children. The Federal 
Government often took Indian children from their homes and 
forced them into boarding schools, some of which were far from 
their homelands. These schools banned native languages, native 
dress, religious practices and many students experienced 
various forms of abuse.
    After decades of failed policy, the U.S. Government adopted 
a new policy of self-determination for tribes in the 1970s. 
This change in policy was based upon the recognition that the 
tribes, and not Washington, were in the best position to govern 
their own affairs. The Obama Administration has taken great 
strides to implement this policy and to honor government to 
government relationships with tribal nations.
    On November 5 of last year at the historic White House 
Tribal Nations Conference, President Obama reaffirmed the 
Federal Government's commitment to tribal sovereignty. He 
promised ``to develop an agenda that works for tribal 
communities because Washington can't and shouldn't dictate a 
policy agenda for Indian Country. Tribal nations do better when 
they make their own decisions.''
    Still, there is much work to be done with regard to tribal 
sovereignty, especially in the area of education. The last 
reauthorization of the Elementary and Secondary Education Act, 
No Child Left Behind, exposed the achievement gap, as Senator 
Tester mentioned in his opening statement, between Indian 
students and their middle class white counterparts.
    It provided us with statistically reliable evidence that 
Indian students perform at levels far below their peers on 
academic assessments. These statistics have made one thing 
clear, at least in the area of education. The Federal 
Government has failed to live up to its responsibilities to 
Indian children and this needs to change.
    Historically, the Department of Education has not engaged 
Indian Country in a meaningful way. However, I am pleased to 
report that under Secretary Duncan's leadership, the 
Department's focus on Indian education has increased 
dramatically. For example, on January 11, Secretary Duncan 
participated in a meeting with Interior Secretary Ken Salazar 
and Indian education experts. In fact, Mr. Moore was at that 
meeting.
    Since that meeting, I have been working closely with 
Assistant Secretary for Indian Affairs Larry Echo Hawk and his 
team to combine and coordinate the Department's resources and 
to maximize our impact on Indian education. And it has been an 
honor working with him as well as his team, and two of those 
individuals are there today, Wizipan Garriott and Del 
Laverdure. It has been a pleasure. Wizipan, by the way, has 
been with us at our tribal consultations representing the 
Department of Interior.
    In addition, in the past two months senior staff, including 
myself, Under Secretary Martha Kanter, Assistant Secretary 
Thelma Melendez, who has joined me here today, have 
participated in several regional consultations with tribal 
leaders across this Country. In fact, we have conducted four 
tribal consultations and we have two upcoming in the next 
month.
    During these consultations, we heard specific ideas from 
tribal officials about what works for Indian Country and this 
is what they said. Tribes want to collaborate with States about 
how Indian students are educated. Native languages and cultures 
are dying out and we must make an effort to preserve or restore 
them. Tribes generally lack the capacity to compete with States 
for competitive funding. There is little high quality reliable 
data on Indian students.
    Many schools that serve Indian students are dilapidated and 
present safety risks. Due to domestic violence, substance abuse 
and high unemployment rates, reservations are distressed 
communities that affect our Indian students learn. And most 
importantly, at every consultation, tribal leaders stressed the 
importance of follow up. They said consultations were 
important, but only as a first step. We want to be judged by 
our actions, not by our words.
    This is why we need to follow up on what we have heard. An 
ESEA reauthorization, as Mr. Moore has pointed out, provides us 
with the unique opportunity to take action.
    We focused on five broad areas for this reauthorization: 
one, raising standards and improving assessments; two, ensuring 
that our best teachers and leaders are in the schools where 
they are needed most; three, ensuring equity in opportunity for 
all students; four, raising the bar and rewarding excellence; 
and five, promoting innovation and continuous improvement. 
These goals are critically important to improving education for 
all students and particularly for Indian students.
    We also have plans for specifically addressing the needs 
for Indian students. For example, we are exploring ways to 
promote tribal sovereignty in the context of education. Our 
proposal would allow schools that serve Indian students to 
implement locally designed strategies to improve student 
achievement such as culturally based education and native 
language instruction.
    We are also exploring how to strengthen tribal education 
agencies. TEAs are really the executive branch departments of 
tribal governments that are responsible for education-related 
matters. Several tribal officials testified that strengthening 
TEAs may provide a mechanism for the Federal Government, tribes 
and States and even local school districts to combine resources 
and develop partnerships that would promote tribal sovereignty, 
increase capacity and improve accountability in schools with 
high percentages of Indian students.
    So in conclusion, as ESEA reauthorization moves forward, we 
will continue our dialogue with tribal leaders and refine the 
department's proposals. We are looking forward to working with 
the Committee to achieve our goals for all Indian students. We 
are also looking forward to working with our Federal partners 
at the Department of the Interior.
    And thank you again for the privilege of appearing before 
you this afternoon, Mr. Chairman.
    [The prepared statement of Mr. Rose follows:]

Prepared Statement of Charles P. Rose, General Counsel, U.S. Department 
                              of Education
Framework: From Assimilation to Self-Determination
    My name is Charles Rose, and I am the General Counsel at the U.S. 
Department of Education. On behalf of Secretary Duncan, I'd like to 
thank Senator Dorgan and the Committee for the opportunity to testify 
today regarding one of our Nation's most underserved student 
populations: American Indian and Alaska Native students.
    Because this Committee is intimately familiar with the history 
between Indian peoples and the Federal Government, there is no need for 
me to recount that history in any great detail. Still, we must 
acknowledge this history to avoid repeating past mistakes, especially 
in the area of education. Over a century ago, the U.S. government used 
education as a weapon in its war against Tribes--it was a means to 
achieve a policy aimed at assimilating Indian children into the 
majority culture of the United States. The Federal Government often 
took Indian children from their homes, and forced them into boarding 
schools, some of which were far from their homelands. These schools 
banned Native language, dress, and religious practices, and many 
students experienced various forms of abuse.
    After decades of failed policy, the U.S. government adopted a new 
policy of self-determination for Tribes in the 1970s. This new policy 
direction was based upon the recognition that Tribes--and not 
Washington--were in the best position to govern their own affairs. 
Since then, Tribes and the Federal Government have made strides in 
implementing this policy and relationship.
    This Administration has taken great strides to implement a policy 
of Indian self-determination and strengthen and honor the government-
to-government relationship with Tribal Nations. On November 5th of last 
year, at the historic White House Tribal Nations Conference, President 
Obama reaffirmed the Federal Government's commitment to Tribal 
sovereignty: he promised ``to develop an agenda that works for your 
communities because . . . Washington can't--and shouldn't--dictate a 
policy agenda for Indian Country. Tribal nations do better when they 
make their own decisions.''
Educational Performance of Indian Students
    Despite these strides, there is still much work to be done with 
regard to Tribal sovereignty, especially in the area of education. Only 
about seven percent of Indian students attend schools funded by the 
Bureau of Indian Education. The vast majority, more than 90 percent, 
attend traditional, school district-operated public schools. In these 
schools, there are few venues for collaboration between Tribes and 
States, even in the case of school district-operated public schools 
located on Tribal lands.
    And the Federal Government hasn't done enough to help in this 
regard, especially when Congress last reauthorized the Elementary and 
Secondary Education Act of 1965 (ESEA) through the No Child Left Behind 
Act (NCLB). NCLB deserves credit for exposing the achievement gap 
between poor and minority students and their middle-class, white 
counterparts. It has provided us with statistically reliable evidence 
that Indian students perform at levels far below their peers on 
academic assessments in grades 3-8 and high school.
    For example, in 2007, Indian students attending public schools 
under the jurisdiction of States scored 11 points lower in math than 
the general student population on the fourth-grade National Assessment 
of Educational Progress test. Unfortunately, when they reached the 
eighth grade, the achievement gap widened to 17 points. Indian students 
attending schools funded or operated by the Department of the 
Interior's Bureau of Indian Education scored 33 points lower in math 
than their peers in fourth-grade and 38 points lower in eighth-grade.
    These statistics make one thing clear--at least in the area of 
education, the Federal Government has failed to live up to its 
responsibilities to Indian children.
    In addition, by narrowing the school curriculum, in other words, by 
building an accountability system based almost exclusively on math and 
reading, NCLB has had the unintended consequence of contributing to the 
erosion of Native languages and cultures. By some estimates, fewer than 
150 Native languages--out of many hundreds that once existed--remain, 
and many of those are on the verge of extinction, and often, stories 
and oral histories are dying with the last speakers of these languages.
What the Department Heard on Its Regional Consultations
    Historically, the Department has not engaged Indian Country in a 
meaningful way. We can avoid repeating past mistakes, however, with 
regular consultation and a meaningful partnership between the U.S. and 
Tribal nations. I am pleased to report that, under President Obama and 
Secretary Duncan's leadership, our focus on Indian Country has 
increased dramatically. In 2009, Secretary Duncan and senior staff, 
including myself, held several listening sessions at Tribal schools in 
Montana, New Mexico and North Dakota. On January 11, 2010, Secretary 
Duncan, along with other senior officials, participated in a meeting 
with Interior Secretary Ken Salazar, Senior Policy Advisor for Native 
American Affairs at the Domestic Policy Council, Kimberly Teehee and 
Indian education experts regarding ways in which to improve education 
for Indian students. In March, Secretary Duncan held a teleconference 
with Tribal leaders from across the country, specifically on 
reauthorization of the ESEA.
    Further, in just the past two months, we have held several regional 
consultations with Tribal leaders across the country. On April 16, 
Assistant Secretary Thelma Melendez and Senior Advisor Greg Darnieder 
were at the Cook Inlet Tribal Council in Anchorage, Alaska, visiting 
schools and seeking feedback from Tribal officials. On April 19, 
Assistant Deputy Secretaries Jim Shelton and Kevin Jennings, and I held 
a consultation with Tribal officials in Shawnee, Oklahoma. On April 28, 
Deputy Assistant Secretaries Carl Harris and Frank Chong, and I were on 
the Pine Ridge Reservation in South Dakota, and held a consultation at 
Pine Ridge High School--a BIE-operated school. Finally, on May 3, Under 
Secretary Martha Kanter, Deputy Assistant Secretary Ricardo Soto, and 
Deputy General Counsel Nia Phillips were on the Espanola reservation in 
New Mexico and held a consultation at the Santa Clara Day School--a 
BIE-funded school.
    I am also pleased to report that the Department of Education and 
the Department of the Interior have been collaborating with one another 
since Secretary Duncan and Secretary Salazar had their historic meeting 
regarding Indian education on January 11. Specifically, I have been 
working closely with Assistant Secretary EchoHawk and his staff to 
combine and coordinate the Departments' resources, and to maximize our 
impact on Indian education. It has been an honor working with him.
    All of these efforts are part of the Department's commitment to 
renew our engagement with Indian Country, and we made a real effort to 
meet Tribal leaders on their lands. During these consultations, we've 
heard specific ideas from Tribal officials about what works for Indian 
Country. There were several common themes we heard at consultations, 
including that Tribes:

  <bullet> Want to collaborate with States about how Indian students 
        are educated. Many Tribal leaders testified the best way to 
        promote Tribal-State collaboration would be to elevate and fund 
        Tribal Education Agencies.

  <bullet> Want States and Tribes to have the flexibility to consider 
        Native languages as foreign languages.

  <bullet> Believe that language immersion programs are the best way to 
        increase fluency in Native languages and that we should 
        increase support for these programs.

  <bullet> Generally lack the capacity to compete with States or school 
        districts for competitive funding.

  <bullet> Want increased coordination and collaboration among Tribes, 
        States, and the Federal Government--to fully address the needs 
        of Indian students. In particular, we heard about the 
        importance of close collaboration between the Department of 
        Education and the Department of the Interior--to which we are 
        fully committed.

    We also heard that:

  <bullet> Due to high mobility, small numbers, and the fragmentation 
        of the education system for Indian students among school 
        district-operated, BIE-operated, and Tribal schools, there is a 
        lack of high-quality, reliable data on Indian students in the 
        U.S.

  <bullet> Many schools located on reservations are in dilapidated 
        condition--some of them are a century old, and have never been 
        renovated.

  <bullet> Due to violence, alcohol and drug abuse, and high 
        unemployment rates on reservations, Indian students face 
        additional educational challenges at school.

  <bullet> Teacher recruitment and retention is a tremendous challenge 
        for schools on reservations. That is why Tribal leaders 
        recommended that ESEA reauthorization should increase existing 
        support for ``grow your own'' teacher programs that train 
        Tribal citizens to teach in their own schools.

  <bullet> Finally, at every consultation, Tribal leaders emphasized 
        the importance of follow-up. One Tribal leader even said 
        ``consultation'' had become a ``bad word'' in Indian Country 
        because to ``consult'' only meant to ``confer,'' and did not 
        require true collaboration or partnership.

Current State of Indian Education
    This is why we need to follow up on what we heard, and 
reauthorization of the ESEA provides us with a unique opportunity to 
take action. Reauthorization can be the vehicle that allows us to 
ensure that States, school districts, and the BIE are meeting the needs 
of Indian students and preparing them to graduate from high school 
prepared for college and careers.
    There are approximately 644,000 Indian students enrolled in K-12 
schools throughout the U.S., and they represent just over 1 percent of 
all public school students. In five States, however, they account for 
more than 10 percent of total enrollment, and over 30 percent of Indian 
students are in schools where they are the majority of the student 
body. They also disproportionately attend schools that are poor and 
remote: nearly 60 percent of Indian students attend schools where more 
than half of students are eligible for free or reduced-price school 
lunch, and almost 50 percent attend schools in remote areas.
    As I mentioned earlier, the vast majority of Indian students attend 
regular public schools, while about 7 percent attend schools funded by 
the BIE. Under the ESEA, the Department provides support both to public 
schools serving Indian students and to BIE schools, including through 
programs specifically targeted at the unique educational and culturally 
related academic needs of Indian students. A significant portion of 
this support comes through the Title I program, which provides $14.5 
billion to high-poverty schools in order to ensure that all students 
have the opportunity to meet high standards.
    The ESEA also authorizes the Indian Education Program, currently 
funded at $127 million, to help meet the specific needs of Indian 
students. This program provides formula grants to school districts, BIE 
schools, and Tribes, as well as competitive grants for demonstration 
projects and pre-service training for Tribal individuals to become 
teachers or school leaders. Services provided by districts under the 
Indian Education Program must be designed with special regard for the 
particular language and cultural needs of Indian students, and can 
include a variety of specific activities. Other ESEA programs of 
particular importance to schools that serve Indian students include the 
Rural Education Achievement Program, which provides $175 million to 
small, rural school districts and rural, low-income districts, and the 
Impact Aid Program ($1.3 billion), which assists districts that are 
affected by Federal activities, such as those on Indian reservations.
Goals for ESEA Reauthorization
    We have five broad goals for this reauthorization: (1) preparing 
college- and career-ready students, through raising standards, 
improving assessments, and helping States and districts provide a 
complete, well-rounded education; (2) great teachers and leaders in 
every school, through improving teacher and leader effectiveness, 
ensuring that our best teachers and leaders are in the schools where 
they are most needed, including schools that serve Indian students, and 
strengthening teacher and leader preparation and recruitment; (3) 
equity and opportunity for all students, through rigorous and fair 
accountability at all levels, meeting the needs of diverse learners, 
and greater resource equity; (4) raising the bar and rewarding 
excellence, through incentives such as Race to the Top, supporting 
effective public school choice, and promoting a culture of college 
readiness and success; and (5) promoting innovation and continuous 
improvement, through programs such as the Investing in Innovation Fund 
(which supports, recognizes, and rewards local innovations) and 
supporting student success by providing comprehensive services. These 
goals are critically important to improving education for all students, 
and especially for Indian students.
    We also have goals and plans for addressing the needs of schools 
that serve Indian students. We know that Federal funding is crucial for 
these schools, especially since they are generally small and remote. 
Our proposal would continue foundational formula funding in Title I and 
Title II-A, along with formula funding in the Rural Education, Indian 
Education, and English Learner Education programs, among others.
    For most schools serving Indian students, we want to promote Tribal 
sovereignty by allowing these schools to implement locally designed 
strategies to improve student achievement, such as culturally based 
education and Native language instruction. We want to give grantees 
more flexibility under the Indian Education Program to carry out Native 
language restoration and immersion programs, and we want to make it 
easier for Tribes to apply for grants under this program when districts 
choose not to.
    But we also know that many schools with high percentages of Indian 
students are among the lowest-performing. For example, ninety percent 
of Montana's schools in ``restructuring'' status under ESEA's Title I 
accountability system are Indian schools, and nearly half of all BIE 
schools are in restructuring, having failed to make adequate yearly 
progress for at least five consecutive years. Our reauthorization 
proposal and fiscal year 2011 budget focus significant attention and 
support on persistently low-performing schools, with $900 million in 
the School Turnaround Grants program to support the implementation of 
one of four school turnaround models in these schools--with the choice 
of which model left to the school district. The BIE would receive its 
share of these funds to turn around its lowest-performing schools.
    Our proposal will also address teacher and leader recruitment and 
retention, especially for schools, like those in Indian communities, 
where they are needed most. The Administration's proposal includes $405 
million for programs that create or expand high-quality pathways into 
teaching, along with programs that recruit, prepare, and retain 
effective teachers, principals, and other school leaders. These 
programs will be focused on preparing teachers and leaders to work in 
high-need areas.
    Finally, in order to further the Administration's policy of self-
determination for Tribes, and to further Tribal-State collaboration, 
the Department is exploring options to strengthen Tribal Education 
Agencies (TEAs) through ESEA reauthorization. TEAs are executive branch 
departments of sovereign Tribal governments that are responsible for 
education-related matters (TEAs are not schools, and generally don't 
deliver educational services directly to students). Several Tribal 
officials have testified that strengthening TEAs may provide a 
mechanism for the Federal Government, TEAs, and SEAs to combine and 
coordinate Federal, Tribal, and State resources, and develop 
partnerships that would promote Tribal sovereignty, increase capacity, 
and improve accountability in schools with high percentages of Indian 
students. Part of strengthening TEAs must include the provision of 
targeted technical assistance, as well as providing TEAs with data 
about Indian students--as we heard during our consultations; there 
currently is a lack of such data.
Conclusion
    As ESEA reauthorization moves forward, we expect to continue our 
dialogue with Tribal leaders and refine the Department's proposal. 
We're looking forward to working with the Committee to achieve our 
goals for all Indian students. Thank you and I would be happy to 
respond to any questions that you have.

    The Chairman. Mr. Rose, thank you very much.
    I think the statements that both of you have given us are 
important in setting out the Administration's interests and 
their notion of a direction here to address these issues.
    Let me call on my colleagues for questions, starting with, 
in order of appearance, Senator Johanns.
    Senator Johanns. Thank you very much.
    And thank you for your testimony.
    If I could focus on one area of ESEA. I am going to ask 
your help in trying to figure out how this area impacts Indian 
Country and schools in Indian Country, and that is turnaround 
policy. The Administration has set out some methods by which a 
school that isn't getting the job done would be turned around, 
I guess, and that is where the terminology comes from. They 
talk about eliminating personnel, moving students to another 
school, changing to a charter school. They talk about 
reassigning principals. In fact, that just happened in a 
community that I have lived in.
    It just occurs to me as I think about these policies, they 
don't make any sense on a reservation. For one thing, I would 
love to think that there is an endless line of people who are 
anxious to sign up and teach, but typically it is recruiting 
that is a challenge.
    So help me think through that. What is wrong with this? And 
I will just give you my bias. I agree with Senator Tester. I 
think this Federal policy is so misguided, this whole notion of 
federalizing K through 12 education. The very junior partner in 
funding, being the Federal Government, is trying to dictate to 
literally the smallest school in the Nation how they are going 
to run their programs.
    So you know where my bias is. Talk me through this.
    Mr. Rose, let's start with you and then I would like to 
hear from Mr. Moore.
    Mr. Rose. Okay. Thank you, Senator.
    As you know, our School Improvement Grant Program is one of 
our most prominent initiatives that we are pursuing in order to 
turn around the lowest-performing schools in this Country. And 
at the heart of the program is the objective to ultimately 
close the achievement gap by providing the students in these 
low-performing schools with educational opportunities that they 
would not have otherwise had but for this program.
    As you mentioned, the Student Improvement Grant Program 
that we have initiated at the Department of Education has four 
models. And one of those models is closing the school. Another 
of those models might be contracting with a service provider 
such as a charter school to come in and operate that school. 
Another model we call the transformation model, which does 
require a change in principal. And then the fourth is the 
turnaround model, which requires a change in staff of up to 50 
percent in addition to the change in the principal.
    Again, at the heart of each one of those models is 
providing better opportunities for our students in these low-
performing schools. And it is our belief that one of the key 
factors that is involved in increasing those opportunities is, 
one, addressing the notion of leadership, which is why two of 
those models require a change in leadership. And it is also, 
second, addressing the overall quality and effectiveness of the 
teaching staff, which is why one of those models requires a 
change in the teaching staff.
    But third, the transformation model, which is perhaps a 
model that is most applicable in the setting that we are 
talking about here, goes beyond that and goes to the actual 
programs, and really requires the adults in these schools and 
these school districts to reassess the programs that they are 
providing to these students and look at models that will 
provide a higher quality educational program.
    So that is the thrust of what we are trying to do. And like 
I mentioned, I do think that in terms of our policy, the 
transformation model is a model that could or is or should be 
useful in this context.
    The Department of Interior, like many of the States, has 
submitted a proposal for the School Improvement Grant Program 
and we are in the process of evaluating that, and hopefully 
that will be approved and then the Department of the Interior 
can work with the BIE schools in order to allocate that money 
to the schools that need it to implement those programs.
    Senator Johanns. Mr. Moore, I am just ticked right out of 
time here, and I don't want to impinge on others' time, but 
maybe there will be an opportunity in response to another 
question to offer your thoughts. Because again, my concern is 
these models don't seem to be relevant to many of the problems 
we are facing, not just in Indian Country, but in other school 
systems also.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Tester?
    Senator Tester. Yes, thank you, Mr. Chairman.
    I want to thank you both for being here once again. We have 
a former teacher and school administrator. We have a former 
legal counsel who used to work for school boards. You guys have 
got a great pedigree.
    Mr. Moore has been married 11 years, has four kids. You 
have been busy in your own right, and that is pretty cool.
    I want to talk about what I used to do in a previous life. 
I was on the school board and then I was a teacher at one point 
in time, both areas that you guys know a little bit about. And 
I just want to lay out a scenario and how do we solve it.
    I am a music teacher. I just graduated from college. I am 
looking for a job. And I have an opportunity to go to a school 
where the kids are going to be great. They have a tremendous 
art program in their background. It is an Indian school, but 
there is so much violence in the town I don't want my kids to 
be a part of that.
    So kind of the same thing that you potentially maybe moved 
up your community for, Mr. Moore. I don't want to put words in 
your mouth.
    How do we recruit teachers in those kind of conditions? 
What can we do?
    Mr. Rose, you talked about the Federal Government has 
failed to live up to their responsibilities. I don't think 
there is any doubt about that. How do we fix it? How do we get 
the most basic thing, other than the student, a good teacher in 
the classroom, which is one of the things you talked about?
    You can go first, Mr. Moore.
    Mr. Moore. I would love to respond. Great question, 
Senator.
    Let me say I am also 10 years older than my wife, so we 
knew we had to hurry.
    [Laughter.]
    Mr. Moore. She is 33. I am 43. So time was ticking on me.
    But I think you bring up a very relevant question. That is 
a tough issue to deal with, finding youngsters that want to go 
into rural communities that are very culturally different and 
very tough to serve in terms of the circumstances that may be 
in those communities on reservations.
    Let me just use a model that I think we are trying to work 
on. My previous university, the University of South Dakota, the 
School of Education, the dean there is Rick Melmer. We had just 
developed a model there we had written for a South Dakota 
Partnership for Teacher Quality Grant. It was specifically 
written to recruit students into the teacher education program 
that were going to be educated, and all of their field 
experience was going to be back in rural, hard to serve 
settings, in order to recruit them on the front end.
    So when we recruited students from high school to go into 
the field of education, we were already promoting this program 
of wanting to find teachers to go back into hard to serve 
schools and communities and showing them what a difference that 
quality teachers and leaders make in those schools, offering up 
different types of scholarship programs, paying for a dorm room 
or food service, whatever it may be, just to be able to pay off 
part of their tuition fees and so forth in order to recruit 
them into a program.
    We have seen a great response in terms of recruiting 
students and selling that program. I think those kind of 
programs, working with tribal colleges on different types of 
programs to recruit teachers and leaders, again I think it goes 
back to what the Department of Education is trying to do with 
policy, which is be creative and be innovative.
    I know in Indian Country we have been struggling with these 
issues in education for hundreds of years. And so it is going 
to take a new model and a new focus. It is those kinds of 
programs that can make a difference in convincing young people 
to go into the field to serve schools and communities.
    Senator Tester. And before I let you respond to the 
question, Mr. Rose, so what you are saying is in South Dakota 
it did make a difference? You got more people that were willing 
to go into Indian Country?
    Mr. Moore. Right, and we are in the forefront of that 
program, but we are seeing a great response.
    Senator Tester. Can it be replicated nationally?
    Mr. Moore. Yes.
    Senator Tester. Do you plan on doing that?
    Mr. Moore. I think it is a model that needs to be presented 
nationally.
    Senator Tester. Keep us informed.
    Mr. Rose, do you want to answer the question?
    Mr. Rose. Sure. I will be brief. In our ESEA 
reauthorization proposal, one of the five objectives is 
improving the overall quality of teachers and leaders in this 
Country. However, let me just mention two things specifically.
    In our tribal consultations, one of the proposals that we 
have heard is that in order to improve the overall quality of 
American Indian education, we need more Native American 
teachers in classrooms in front of Native American students. 
One way in which to do that, which I think Mr. Moore is talking 
about as well, are these so-called grow your own teacher 
programs. Those are programs that we support, we want to see 
more of, and we will work with the Department of the Interior 
to see if we can, with our partners there, expand those 
programs.
    Second, quickly, is that our ESEA proposal does include 
$405 million for Teacher and Leader Pathways programs, which 
again are designed to prepare effective teachers and 
principals, but can also be used along these lines that you are 
suggesting.
    So I think those are two ways in which we an work together 
to address this problem.
    Senator Tester. Do you have any statistics to tell me how 
many teachers the grow your own teachers has brought into 
difficult to teach areas?
    Mr. Rose. Off the top of my head, I don't have the 
statistics, but I would be happy to go back and see what I can 
provide to you at the department.
    Senator Tester. I agree with you, and I am hearing DOE and 
the DOI saying the same thing. If there are ways you can expand 
this program to work across the word, I think it is smart. I 
also think it is very smart recruiting kids right out of high 
school. I think that is where you get them.
    Anyway, thank you very much for being here.
    Thank you, Mr. Chairman.
    The Chairman. Senator Tester, thank you.
    Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Dorgan.
    I didn't make it here for openings, but put my opening in 
the record.
    The Chairman. Without objection.
    Senator Udall. I very much appreciate your holding this 
hearing. I think the focus, when we say did the No Child Left 
Behind Act leave Indian students behind, I don't think there is 
any doubt in terms of how we answer that question. It has left 
Native American students behind. I don't think there is any 
doubt about it.
    I wanted to ask both of you about what Mr. Rose brought up 
in terms of these models. You were responding to Senator 
Johanns' question of how you are going to bring the change 
about in these schools, which I think all of us up here feel 
there needs to be dramatic change. Two of the models is 
changing the leadership.
    My first question really is, have you tested this before? 
Has this ever been utilized in BIE schools? Have you seen a 
good result? What makes you think if you change the leadership 
you are going to be able to find the right kind of leadership 
that is going to be culturally sensitive and understand what is 
really going on in these schools? So that is the first 
question.
    And then secondly, we all know that teachers, and Senator 
Tester focused on this, are really the key. What in the past, 
if there have been success stories, have we been able to track 
the kind of teachers that then will produce the good results 
with native students?
    Mr. Moore, do you want to start out?
    Mr. Moore. One, I do think we have to, especially in rural 
settings, consider it is a lot more difficult, obviously, in a 
rural setting than in an inner city even to fill the chair once 
the chair is vacated. So I think it is two-tiered.
    I think, one, we should work hard to provide technical 
assistance and professional development to the current 
administration that is there and leadership. But at the same 
time, in many instances, we see a real revolving door in 
administration where on one reservation an administrator may be 
relieved of their duties and they end up over here at 
reservation B, and then they are relieved of their duties there 
and they are over at C and D and E, and they may end up back at 
A again 10 years later. We see the revolving door of what would 
be deemed not very effective leadership.
    Senator Udall. That is really unacceptable. If you have 
made the conclusion that this person is not a good leader in 
one school, what makes you think they are going to be a good 
leader in another?
    Mr. Moore. But the point is that it is difficult to find 
quality individuals. That is where I think grow your own can 
really assist and help when you are recruiting in Indian 
Country for folks to become teachers and leaders and 
administrators in a rural setting and on the forefront really 
working to fill the pipeline with folks that want to fill those 
positions, and then working hard there to really teach them and 
educate them about what it is going to be like culturally and 
all of those things to serve in those schools and communities.
    Senator Udall. Mr. Rose, please?
    Mr. Rose. Thank you. Before I respond to your question, I 
just want to share with you, Senator, one of the pleasures of 
the last few months has been that I am a member of the Board of 
Trustees for the Udall Foundation as the Department of 
Education's Director. That has been a real pleasure and a real 
privilege to serve on that.
    Senator Udall. And there is a lot going on there with 
native leadership also in a number of other contexts.
    Mr. Rose. Right.
    Senator Udall. Hopefully, there can be some cross-
pollination here.
    Mr. Rose. I hope so. We are working with Terry Bracy and 
Ellen Wheeler and others.
    As a former management lawyer or school board lawyer in 
Illinois, leadership, in my mind, is the key. Yes, in terms of 
the models that we have promulgated under the School 
Improvement Grants, finding good leaders is perhaps a 
challenge, but it is a challenge that we must rise to and meet.
    I am not aware specifically about change of leadership in 
BIE schools, but obviously that is one of the things that we 
need to pursue, working closely with the Department of the 
Interior.
    As far as other schools across this Country, there is 
evidence in areas like Chicago, L.A. and New York, and we can 
provide some of this to you as a supplement to my testimony 
here, that changing leadership has resulted in positive student 
growth in these schools. As difficult as it is, changing 
leadership is often vital to making that change. I will provide 
that to you.
    Senator Udall. Okay. Thank you.
    The tenor of what you say is very important. We just need 
to get it working on the ground to have the reality of native 
students doing better, and I hope you are both committed to 
that and going to make that happen.
    Thank you very much.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    In our state of New Mexico, we have 3 tribal colleges (Southwestern 
Indian Polytechnic Institute, Navajo Technical College, and the 
Institute of American Indian Arts) and 45 tribal schools, 27 of which 
are solely BIE operated. In fact, 24 percent of the Nation's tribal 
schools are in New Mexico.
    Tribal education is crucial to sustain the culture and traditions 
of our Native peoples. A critical part of this is encouraging the 
survival of Native languages, through such avenues as the Esther 
Martinez Native American Languages Preservation Act. As Indian children 
grow, we must provide the safest, healthiest, and best education 
possible and honor our Trust agreements.
    However, I am concerned that this responsibility is not being met. 
Too many tribal schools have severe safety and code violations, suicide 
and dropout rates are unacceptably high. Native students are simply not 
learning in environments that allow them to reach their full potential.
    American Indian youth have to endure unacceptable disparities in 
services and outcomes and face social barriers that make completing 
school much, much harder. Seventy-six percent of White students 
graduate from high school, but only 57 percent of American Indians do.
    I am also concerned that there is no system in place that support 
school health programs in BIE schools the way there is in most public 
schools.
    I realize that there are many challenges in providing the best 
education for our Native youth, from attracting and retaining qualified 
teachers and administrators, to transporting our children in safe 
vehicles over better roads regardless of weather conditions, 
maintaining old school buildings and accessing broadband and other 
technologies.
    Today we're focusing on how to improve the reauthorization of the 
Elementary and Secondary Education Act to address some of these issues. 
I look forward to the testimony of our witnesses and hope that they 
will identify the best ways to improve these conditions. These children 
deserve more. Thank you.

    The Chairman. Senator Udall, thank you very much.
    I am going to call on Senator Johnson and then Senator 
Murkowski, and then we will have four additional witnesses. One 
of them will be by the Internet for the second panel today.
    Senator Johnson?
    Senator Johnson. I am impressed with the need for more 
quality teachers.
    Mr. Moore, I was home on the Pine Ridge Reservation just 
last weekend and it struck me how many Teach for America 
faculty there were, which is both good news and bad news. The 
good news is they are talented teachers and capable. The bad 
news is they are short term and they tend not to be Native 
American.
    Where do the tribal colleges and universities fit into this 
scheme for providing more teachers? And has it for the most 
part been successful?
    Mr. Moore. Mr. Chairman, Senator, thanks for the question.
    I think historically we have seen waves where we do a good 
job of recruiting teachers, native teachers and leaders. There 
are different periods if you look in history where different 
grant programs come in and we do a nice job of recruiting a 
good cadre of folks that become teachers and leaders. And then 
when those dollars go away, we see the shortage for 10, 20 
years, and then something may come back and we will see the 
pipeline fill again.
    I think we need to find more consistent measures and 
consistent ways to recruit native youngsters into the field of 
education and really adequately develop programs that do that. 
I think that is an issue. So I think at times we see success, 
but then there are times that we don't have success in terms of 
filling those chairs.
    I also would, if you don't mind, comment on Teach for 
America. When I was State Indian Education Director, that 
program was really growing in South Dakota. And I do think one 
thing that Teach for America does do well is they do nice 
training on the front end for their teachers of trying to 
culturally prepare them for the situations that they are 
stepping into.
    At the same time, I know some folks call it a band-aid 
measure because they are maybe only around for two or three 
years, but you are talking about some of the best and brightest 
youngsters in this Country that go in and really understand the 
curriculum; the materials to teach it. They have a solid 
understanding of it.
    And so it is a tough one. I ask myself, do you want Teach 
for America or do you not want Teach for America? If you do not 
want Teach for America, you may be filling that classroom with 
a warm body in many instances. We struggle to find people right 
now to apply for jobs in Indian Country on reservations. We 
have about 70 youngsters right now serving on the Rosebud and 
Pine Ridge Reservations in Teach for America and I think they 
are making a difference in terms of what young people are 
learning.
    So we have to be careful in the work that we do here, 
whether we support these programs ongoing, or how do we change 
direction and find more teachers that are going to stay for a 
long-term basis. But right now it is tough to say that Teach 
for America isn't making a difference in youngsters' lives in 
terms of serving and educating youngsters in those areas. So I 
just wanted to comment on that real quick.
    Senator Johnson. Again, what role do you see for tribal 
colleges and universities for the provision of teachers?
    Mr. Moore. If I didn't answer that, I was going to say I 
think we need to develop more consistent measures of how we 
recruit and train teachers. I think there are times, again, 
that we do a nice job of that and then maybe we feel like we 
have had a nice group that have been educated and are in the 
pipeline and serving, and then maybe the focus becomes 
somewhere else because there are so many needs on reservations.
    Senator Johnson. Mr. Rose, what steps has the Department of 
Education taken to coordinate with the BIE?
    Mr. Rose. Senator, before I answer that question, I just 
want to say in terms of the White House Initiative on Tribal 
Colleges and Universities, Maggie George recently joined the 
Department as the Executive Director of that program. And front 
and center on her agenda, as well as ours generally at the 
Department, is trying to use that position in coordination with 
the BIE to improve the overall quality of teachers and get 
qualified teachers into our BIE schools. And I think that is a 
tremendous opportunity to do that.
    What are we doing in terms of coordinating with the BIE? 
Number one is the consultations. BIE has been with us every 
step of the way and I can't thank them enough. Second is, we do 
hold regular meetings and conference calls with our BIE 
colleagues in order to coordinate. Number three, we have 
outside of the tribal consultations and outside of these 
meetings visited tribes and other education leaders in this 
Country in order to ascertain what the proposals are to improve 
our system of education for American Indians.
    So at the top, Secretary Salazar and Secretary Duncan have 
been very, very supportive of our interagency collaboration. So 
those are what we are doing to make that commitment a reality.
    Senator Johnson. My time is expired.
    The Chairman. Thank you very much.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the hearing.
    Gentlemen, the Committee has had a series of listening 
sessions to hear from tribes about their priorities. As we look 
to reauthorization of the ESEA, one of those that has come from 
that is a focus on cultural and language-related curriculum. We 
have some successes in Alaska. One that I have visited in the 
not too distant past was the Yu'pik Immersion Program in 
Bethel, Alaska. It really goes to the core of what makes our 
native students so successful in achieving their educational 
success. They know who they are. They have a sense of pride in 
who they are. They are not hiding, living in shame.
    It is something that I think we look to. And as we try to 
determine what is it that it going to make that connect between 
the student and academic success, where is that relevancy? I 
think we see it so much when we are able to engage our young 
people in their native cultural languages.
    I have introduced a bill, Mr. Chairman. It is called the 
School Accountability Improvement Act. I serve on the HELP 
Committee. I have chosen to focus on certain areas that relate 
to Alaska Native students and rural schools. I would actually 
like, Mr. Chairman, to include in the Committee's record my 
Floor statement when I introduced that legislation as a part of 
the Committee record.
    Senator Murkowski. I also have an opening statement that I 
would like to include as well.
    The Chairman. Without objection.
    Senator Murkowski. But again, I think that is so key as we 
look to those ways that, again, we ensure that relevancy.
    Mr. Rose, I want to ask you about the teacher turnover. We 
talked a little bit about retention. We know that the turnover 
rate in the schools that serve our Indian children is so 
incredibly high. On the HELP Committee, we have been focused on 
the Secretary's blueprint and how we turn these schools around. 
And those of us who come from rural States are more than a 
little bit concerned about the restructuring status in the four 
proposed turnaround models.
    The concern that I have is that under these four models, 
firing the principal and at least 50 percent of the teachers is 
required as that first step in this turnaround process. For us 
in Alaska, part of our problem is we can't get the 
administrators to the school. We can't get the teachers to the 
school.
    It is not just because we face a shortage of teachers. In 
far too many of our communities, there are other factors at 
play. You are in a village that is small. You are teaching 
multiple subjects. You are in a village that does not have 
running water, sewer. Your housing conditions are not 
acceptable. It is very, very difficult for a multitude of other 
reasons.
    So the concern that we have is if this is your first step 
in turning a school around, we are not going to get any of 
these lower-performing schools or these schools that need help, 
the help that we need. How will we get a principal out to a 
school?
    When I took the Secretary of Education out, not this one, 
but Secretary Paige, the principal was living in the broom 
closet. How am I going to get another principal to go out to 
Savoonga if he or she knows that they are going to have no 
housing?
    So how do we work through this? Because I am very concerned 
as we move forward with ESEA, we are going to have situations 
where it is children in our villages up north; it is children 
on our reservations where we are not going to be able to get 
those key administrators, those key teachers to come in. How do 
we address this?
    Mr. Rose. Well, Senator, in our tribal consultations, just 
to address the first issue in terms of language and culture, 
that has been one of the preeminent issues that has arisen. 
Once I respond to your question, I just want to share with you 
a quote from one of our consultations on that issue that really 
has resonated with us at the Department.
    As you know from the Secretary's testimony before the HELP 
Committee and what I have said here, the core of our turnaround 
strategy is ensuring that the adults that are in front of our 
children are in fact the highest quality adults as possible in 
terms of the leading and teaching students that are otherwise 
in low-performing schools.
    We recognize the challenges that our models present in 
rural areas and particularly in areas like Alaska. I think as 
the Secretary has also expressed, we will continue to work with 
Congress and the Committees in order to address those concerns.
    I also want to say that sometimes, as difficult as it may 
be, I am also speaking from my experience as a school board 
lawyer before I took this position, a change in leadership is 
necessary. Again, if that is going to happen, we, the folks 
that are involved in pursuing those changes, need to work with 
those school districts, with those individuals to ensure that 
there are high quality principals in those schools. And that is 
part of a larger systemic issue, I think, facing public 
education, but we are committed to working through this and 
trying to address and resolve some of these concerns.
    Let me just share with you briefly this quote. During our 
consultation in Anchorage, Alaska, one of the tribal leaders 
said in connection with the language and culture issue, and I 
think this is what really has resonated with us is the 
following quote: ``I feel that the native language should be 
taught and I also feel that it is a beautiful jewel, the native 
language, to wear. If I wear it, it will shine. But if I put it 
away in a jewelry box, what is the use of it being there?''
    And that spirit has really resonated with us as we continue 
to work with Indian Country on our ESEA proposals and also work 
with Congress on our proposals.
    Senator Murkowski. I appreciate that, a beautiful quote. I 
am going to have to get that from you. But as it relates to how 
we deal with these schools where it is very difficult to get 
the teachers and the staff, I would hope that you would work 
with us in these areas where there are other factors that are 
at play that so complicate it. It looks good on paper, but we 
have to make sure that it translates.
    Thank you, Mr. Chairman.
    [The prepared statement and Floor statement of Senator 
Murkowski follow:]

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator from Alaska
    Chairman Dorgan, Vice Chairman Barrasso, I am pleased to join you 
today to discuss the impacts of the No Child Left Behind Act on Indian 
students as well as tribal recommendations as the Senate considers 
reauthorization of NCLB.
    We must recognize that American Indian and Alaska Native students 
face many more challenges than students on Main Street, America. The 
lack of law enforcement creates an unsafe situation for too many Alaska 
Native and American Indian children. The lack of running water and 
sewer in Alaska Native villages and some reservation communities 
presents health challenges that no other community in the country 
faces.
    Mr. Chairman, I have stated many times, in my home State of Alaska, 
we have many unique challenges in providing Native peoples with a high-
quality, appropriate education. It is a challenge to recruit teachers 
to places where the culture is so different from their own, there is no 
running water, nor law enforcement, limited access to health care, and 
costs are high. It is a challenge for students to stay motivated about 
their education when there is a lack of opportunity for good jobs in 
their home communities. Instead of academic success, hopelessness 
breeds substance abuse, and youth suicide. It is also a challenge to 
ensure that local communities value the education that is being 
provided in the school when some educators are willing to trade Native 
language and culture for teaching to the test in order to make AYP.
    Despite this stark reality, I know hope exists. The Ayaprun Yupik 
Immersion School in Bethel, Alaska is one example. The immersion school 
addresses the core of what makes Native students successful in 
achieving educational success--knowing and valuing who they are. For 
too long, through generation after generation, the history of Native 
Americans, Alaska Natives, and Native Hawaiians has included hurt and 
shame. We must do our part to ensure that history stops with this 
generation of students.
    Part of our job is to make sure that federal education law embraces 
local communities' desire to revitalize their culture and language. In 
Alaska, Hawaii, and several other states, Native Americans are working 
hard to keep their indigenous languages and cultures alive. Teachers 
will tell you, and research supports them, that Alaska Native, Native 
Hawaiian, and American Indian students learn better when their heritage 
is a respected and vibrant part of their education. This is true of any 
child, but particularly true for these groups of Americans.
    Mr. Chairman, as ESEA is reauthorized, we must work to ensure that 
flexibility is provided for Native language immersion programs, that 
elders are allowed into classrooms to guide the young people, and that 
teachers and principals have guidance in incorporating appropriate 
learning styles, culture, and Native ways of knowing into their 
curriculum. We must continue to disaggregate the proficiency data so 
that the light continues to shine on Native students' achievement. And 
we must ensure that all of ESEA works for our nation's indigenous 
peoples--not just the Indian title of the law.
    Thank for you for holding this hearing today, and directing 
attention to a very important issue. I look forward to hearing the 
witnesses' testimony.
                                 ______
                                 
         Floor Statement--School Accountability Improvement Act
    Ms. Murkowski. Mr. President, I rise today to introduce the 
``School Accountability Improvements Act.''
    As you know, the 2001 re-authorization of the Elementary and 
Secondary Education Act, also known as the No Child Left Behind Act, or 
NCLB, made significant changes to Federal requirements for schools, 
school districts, and states. Many of these changes have been good, and 
were necessary.
    Because of NCLB, there is more national attention being paid to 
ensuring that schools, districts, and states are held accountable for 
the achievement of students with disabilities, those who are 
economically disadvantaged, and minority students. In my own state of 
Alaska this has meant, for example, that our more urban school 
districts are paying more attention than ever to Alaska Native 
students' needs.
    People across the nation are also more aware that a teacher's 
knowledge of the subject matter and his or her ability to teach that 
subject are the most important factors in ensuring a child's 
achievement in school.
    Teachers, parents, administrators, and communities have more data 
than ever about the achievement of individual students, subgroups of 
students, and schools. With that data, changes are being made to school 
policies and procedures and more students are getting the help they 
need to succeed in schools.
    While these are just a few of the positive effects of the No Child 
Left Behind Act, there have been problems. This is not surprising, as 
it is difficult to write one law that will work well for both New York 
City and Nuiqsut, Alaska.
    My bill, the ``School Accountability Improvements Act'' is meant to 
address six issues that are of particular concern in Alaska and in 
other states around the nation.
    First, my legislation would give flexibility to states regarding 
NCLB's ``Highly Qualified Teacher'' requirements. In very small, rural 
schools, it is common for one teacher to teach multiple core academic 
subjects in the middle and high school grades. NCLB requires that this 
teacher be ``Highly Qualified'' in each of those subjects.
    While it is vital that teachers know the subjects they teach, it is 
also unreasonable to expect teachers in very tiny schools to meet the 
current requirements in every single subject. It is almost impossible 
for tiny, remote school districts to find and hire such teachers. Yet, 
students deserve to have teachers who know the subjects they teach.
    My legislation would provide flexibility by allowing instruction to 
be provided by Highly Qualified teachers by distance delivery if they 
are assisted by teachers on site who are Highly Qualified in a 
different subject. This provision is offered as a compromise in those 
limited situations.
    Second, my legislation would give credit to schools, rather than 
punish them, if students are improving but have not yet reached the 
state's proficiency goals by requiring the U.S. Department of Education 
to allow states to determine schools' success based on individual 
students' growth in proficiency. While it can be useful to teachers and 
administrators to know how one group of third graders compares to the 
next year's class, it is much more useful for educators, students, and 
parents to know how each child is progressing--is the child proficient, 
on track to be proficient, or falling behind? Many states now have the 
robust data systems that will allow them to track this information; 
NCLB should allow them to use the statistical model that will be most 
useful.
    My bill also improves NCLB's requirements for school choice and 
tutoring. No Child Left Behind gave parents an opportunity to move 
their children out of dysfunctional schools. I support that. But the 
law requires school districts offer school choice, and to set aside 
funds to pay for transportation, in Year Two of Improvement Status. 
Schools don't have to tutor the students until the following year. Mr. 
President, this is backwards logic. Schools should be given the 
opportunity to help students learn first before transporting them all 
over town. I think most parents agree, and that is one reason why we're 
seeing fewer than 2 percent of parents choose to transfer their 
children to another school. My bill would require schools to offer 
tutoring first before providing school choice.
    Mr. President, NCLB also requires schools to tutor and offer choice 
to students who are doing well at their neighborhood school. Schools 
should not be forced to set aside desperately needed funds to serve 
students who don't need those services. My bill would require schools 
to provide tutoring and choice only to those students who are not 
proficient. In addition, it would allow school districts to provide 
tutoring to students even if the district is in Improvement Status. 
While school districts may need improvement overall, those same 
districts employ teachers who are fully capable of providing effective 
tutoring.
    Mr. President, many educators and parents also have concerns about 
NCLB's requirements for Corrective Action and Restructuring. These are 
very significant requirements that can include firing staff and closing 
schools that don't meet the law's AYP requirements. They are even more 
significant if the actions are not based on reliable information.
    As you know, assessing whether a child is proficient on state 
standards in a reliable and valid way is difficult. It is even more 
difficult when the child has a disability or has limited English 
proficiency. Some question whether or not the tests we are giving these 
two groups of students are valid and reliable. Yet, NCLB requires 
districts and states to impose significant corrective actions or 
restructure a school completely if a school or district does not make 
AYP for any subgroup repeatedly. For truly dysfunctional schools and 
districts, that may be appropriate.
    But Mr. President, how do we justify taking over a school, firing 
its teachers, turning its governance over to another entity, or other 
drastic measures if the students are learning but have not yet met the 
state's proficiency benchmarks? We can't.
    That is why my bill would not allow a school or school district to 
be restructured if the school missed AYP for one or both of those 
subgroups alone and the school can show through a growth model that the 
students in those two subgroups are on track to be proficient in a 
reasonable amount of time. Schools that are improving student learning 
should not be dismantled based on potentially invalid test results.
    Mr. President, in Alaska, Hawaii, and several other states, Native 
Americans are working hard to keep their indigenous languages and 
cultures alive. Teachers will tell you, and research supports them, 
that Alaska Native, Native Hawaiian, and American Indian students learn 
better when their heritage is a respected and vibrant part of their 
education. This is true of any child, but particularly true for these 
groups of Americans.
    Many schools around the country that serve these students have 
incorporated indigenous language programs into their curriculum. The 
problem is that in many instances, there is no valid and reliable way 
to assess whether or not the students have learned the state standards 
in that language. Neither is it valid to test what a student knows in a 
language they don't speak well. Research also tells us that students 
who are learning in a full language immersion program do not test well 
initially, but by 7th grade they do as well or better on state tests 
and they can speak two languages.
    My legislation would allow schools with Native American language 
programs in states where there is no assessment in that language to 
calculate Adequate Yearly Progress for third graders by participation 
rate only. It would then allow the school to make AYP if those students 
are proficient or on track to be proficient in grades 4 through 7.
    Finally, Mr. President, I know as a parent how important it is to 
my boys that their father and I have always been involved in their 
education. NCLB recognizes, in many ways, how important parents are in 
a child's education, but improvements can still be made. My bill would 
amend Title II of NCLB--which authorizes subgrants for preparing, 
training, and recruiting teachers and principals--to allow (but not 
mandate) more parental involvement in our schools. This section of my 
bill would allow parent-teacher associations and organizations to be 
members of federally funded partnerships formed to improve low-
performing schools and to provide training to teachers and principals 
to improve parental engagement and school-parent communication.
    I can tell you that as wonderful as our nation's teachers are, very 
few of them graduate from college having had a course in how to 
effectively communicate with parents. Teachers are very busy people, 
and when a parent shows up at the classroom door and says, ``Hi, I'm 
here to help'' teachers often don't know how to react. Many teachers 
have difficulty communicating with parents who may be working two jobs, 
or who have a different cultural background or language. In my view, 
parents should be a part of improving their children's schools, and 
have insights into how communication between school and home can be 
improved.
    Mr. President, I know that these six issues are not the only issues 
that my colleagues, Alaskans, and Americans may have with the No Child 
Left Behind Act. I have been talking with Alaskans about NCLB since I 
came to the Senate, and I look forward to working hard on the 
reauthorization of the law this year.
    Thank you, Mr. President.

    The Chairman. Senator Murkowski, thank you very much.
    I am going to be submitting questions to you because I want 
to have the next panel, and we are expecting at some point here 
a series of votes on the Floor of the Senate, so I want to make 
sure I get the testimony from the next panel.
    I really appreciate the testimony that both of you have 
given today. If this is in fact your first testimony before a 
Senate Committee, you have both done very, very well and I 
think it is very productive for us. So thank you very much.
    We will dismiss both of you and ask that we have the 
Honorable Chad Smith, Principal Chief of the Cherokee Nation in 
Oklahoma to come forward. We have an Indian youth, Ms. Mariah 
Bowers from the Yurok Tribe in Klamath, California. She will be 
appearing via Skype.
    We have Ms. Mary Jane Oatman-Wak Wak, who is the President-
Elect of the National Indian Education Association. And we have 
Mr. David Beaulieu from Milwaukee, Wisconsin.
    So let me begin with Mr. Chad Smith. Mr. Smith, welcome. 
You are the Principal Chief of the Cherokee Nation in Oklahoma. 
You have heard the previous testimony and we welcome you here 
as the start of the second panel. You may proceed.

 STATEMENT OF HON. CHAD SMITH, PRINCIPAL CHIEF, CHEROKEE NATION

    Mr. Smith. Thank you very much, Mr. Chairman.
    We have several recommendations regarding the 
reauthorization bill to address the challenges and specific 
needs of Indian Country by including the focus on native 
history, culture and language; to allow the tribes greater 
access to education formal funding and flexibility to self-
determine their educational future; and lifting the moratorium 
on the grades one through eight at Sequoyh High School and some 
of the Bureau of Indian Affairs schools.
    Basically, after the American Civil War, the Cherokee 
Nation had fought two-thirds for the north and one-third for 
the south. It created 4,000 widows and orphans. We built an 
orphanage.
    At Oklahoma Statehood in 1907, the Federal Government took 
over and our boarding school became an Indian training 
orphanage. It evolved through the Depression, because many of 
our families could not afford to raise their children because 
of the Depression. In fact, my dad graduated from high school 
at Sequoyh Indian Training School in 1940.
    In 1985, the Cherokee Nation contracted back from Bureau of 
Indian Affairs. Ten years ago, we wanted to become a Leadership 
Academy. In fact, in 1999, we had a capacity of 350. We had 
enrollment of 205. It was known as a school of last resort. If 
you got kicked out someplace else, you came to Sequoyh.
    To build that Leadership Academy, we understood that the 
product was singular, to create leadership, where every child 
could make sound decisions to lead themselves, lead their 
families, to lead their communities, their nation and their 
country.
    Today, we have an enrollment of 400. We have 83 on a 
waiting list. In the last five years, we have a host of State 
championship titles in girls basketball and boys basketball; 
championships in cross country, softball, and football. In 
fact, one of the success stories is here in Nathan Stanley, who 
graduated two years ago from Sequoyh. He will be, if he will 
go, the starting quarterback at Ole Miss next year.
    Other athletes that we have been able to graduate include 
Angel Goodrich, who will be starting guard at Kansas 
basketball; the Hammer sisters at Mercer. We actually have 
students now at the Air Force Academy, the Naval Academy and 
West Point. As of this date, in the last five years, we have 
now had 32 Gates scholars.
    So the success there is basically students from us wanting 
to make it a Leadership Academy. The Cherokee Nation having 
contracted it, and creating a focus allows us to create an 
environment that is healthy and happy and wholesome. For 
example, it is an open campus. We get an incident report each 
year, every month actually. This last two months, our greatest 
incidence of discipline was for improper use of cell phones, 
which is a great blessing for us.
    What you see here is part of the investments we are making 
over the next few years in academics, including robotics 
training. There we compete with the State. We are investing in 
math, science, music and art. So it has become a school of 
choice.
    Critical to the growth of the school is that we are now 
funded through the Bureau of Indian Affairs in grades 9 through 
12. With tribal funds, we added the seventh and eighth grades 
so we could prepare the kids to acclimate to our all-Indian 
school.
    We have actually begun an immersion school which when the 
children go into the school at pre-K, they speak no English. It 
has been a great success. In fact, we now have 80 children. We 
added one grade per year. We have 80 children in immersion 
school, and when they are in the second grade, they become 
literate in our language, not only fluent. This is a graduating 
class from the immersion school as kindergartners.
    This is sort of fascinating. We have had to redevelop the 
entire curriculum for teaching Cherokee. We have had our 
literate language since 1822 when Sequoyh developed it. In the 
last decade, we have lost a great sense of literacy. In fact, 
in 1828, we were 90 percent literate in our language. And so we 
have had to use every technique and trial and error we could.
    And so with our language, we are developing the curriculum 
and we need more work with not only translation, but grammar 
and syntax and verb conjugation. But we have had great 
assistance from the private community with Apple. Andy Kemp is 
here from Apple. He has helped us with the iPhone and the iPad 
to help us develop translations and books for children.
    In fact, our children can type back and forth to each other 
in the second grade being literate in the Cherokee language. We 
introduce English literacy later in the fourth grade.
    With the Chairman's permission, I would like to have staff 
come and show you this iPad with our language in it, with 
stories about President Obama and President Bush.
    Basically, what we believe in Indian Country is critical. 
It has allowed the tribes the self-determination to create this 
success. Every school is different. We are so happy that we 
have had the opportunity to attend.
    And just as a short footnote to follow up some of the 
questions the panelists have responded to. In 1973, I graduated 
from the University of Georgia in a cohort called the Indian 
Teacher Training Program. There were 15 Indian folks like 
myself, highly intensive with counseling and such. We were 
interned on a reservation one semester and back in the 
classroom in Georgia the next semester. It was a very, very 
effective program. So to add to the earlier testimony, that 
program was very successful.
    The Chairman. Mr. Smith, that is a very inspiring story and 
I almost wanted to keep that iPad. They are very hard to find, 
as you know, but you are very lucky to have one.
    [Laughter.]
    The Chairman. Thank you for sharing that with us, and 
especially what you are doing with the youth and education 
system.
    [The prepared statement of Mr. Smith follows:]

Prepared Statement of Hon. Chad Smith, Principal Chief, Cherokee Nation
    Chairman Dorgan and Vice Chair Barrasso, on behalf of the Cherokee 
Nation, I thank you for hosting this discussion on the No Child Left 
Behind Act and the subsequent effect it has had on students in Indian 
Country. My name is Chad Smith and I am the Principal Chief of the 
Cherokee Nation. The Cherokee Nation is the second largest American 
Indian nation in the United States, with approximately 280,000 
citizens. The Cherokee Nation Tribal government is seated in Tahlequah, 
Oklahoma with a territorial jurisdiction spanning 14 counties in 
northeast Oklahoma.
    We have a 100 year plan and believe the vision or ``designed 
purpose'' of the Cherokee Nation is to become a happy and healthy 
people. Our strategy is to become economically self-reliant, revitalize 
our language as the vessel of cultural intelligence and develop 
cohesive place and interest communities. We execute our strategy with 
leadership. We acquire leadership through education.
    Education has always been a major priority to the Cherokee people. 
The history of our tribe is adorned with many great scholars and 
intellectual minds. One of the first governmental acts after the Trail 
of Tears was an appropriation by the Cherokee Nation to set up numerous 
day schools in the Cherokee Nation decades before the formation of the 
state of Oklahoma. The Cherokee Female Seminary was the first institute 
of higher learning for women west of the Mississippi, established in 
1851. Today we are continuing this portion of our legacy through the 
success of our education programs at Sequoyah Schools and our Cherokee 
Nation Immersion School. Sequoyah Schools, an Indian boarding school, 
originated in 1871 when the Cherokee National Council passed an act 
setting up an orphan asylum to take care of the many orphans who came 
out of the Civil War. In 1914, the Cherokee National Council authorized 
Chief Rogers to sell and convey the property of the Cherokee Orphan 
Training School, including 40 acres of land and all the buildings, to 
the United State Department of Interior for $5,000. In 1925, the name 
of the institution was changed to Sequoyah Orphan training School in 
honor of Sequoyah, the Cherokee citizen who developed the Cherokee 
Syllabary.
    The Cherokee Nation resumed operation of Sequoyah in 1985 and added 
7th and 8th grades in 2006 when it became known as Sequoyah Schools. 
From a school with one building and 40 acres of land, Sequoyah Schools 
has grown into a modern institution covering more than 90 acres and a 
dozen major buildings nestled on a beautiful campus five miles 
southwest of the Cherokee Nation capital city of Tahlequah, Oklahoma. 
It is regionally and state accredited for grades 7-12 and currently 
enrolls 400 students representing 42 tribes and 14 different states. 
Students are eligible to attend if they are members of a federally 
recognized Indian tribe or one-fourth blood descendants of such 
members.
    The purpose of Sequoyah is singular: to develop leadership so our 
graduates can lead themselves with sound decisions, and lead their 
families, communities, Nation and Country to be happy and healthy 
people.
    It is an honor to be accepted to Sequoyah Schools. To be 
considered, students must have a 2.25 grade point average, three 
letters of reference, and no incident reports at their previous school. 
School administration feels that setting a standard for entrance 
requirements motivates students at an early age to perform their best 
in order to work towards attending Sequoyah Schools. It creates an 
expectation of success. This has been attested to by many elementary 
and junior high principals from surrounding school districts. Sequoyah 
Schools offers an academic curriculum that focuses on preparing 
students for college success. The majority of graduates from the School 
go on to higher education.
    Many students have earned scholarships as a result of their 
academic success and their heavy involvement in community service and 
volunteering. Some of the recent success stories include students being 
accepted to West Point, The Air Force Academy, The Naval Academy, 
Dartmouth and Mercer.
    For several years, there has been a moratorium on expansion of 
grade levels at Bureau of Indian Affairs Schools. This moratorium has 
chilled growth at Sequoyah High School, since no funding is allowed for 
1st through 8th grade. Sequoyah Schools has become the primary school 
of choice in Northeastern, Oklahoma for Indian students. Students at 
Sequoyah consistently perform at higher levels than their peers in the 
Oklahoma public school system. Over 25 percent of Sequoyah seniors are 
enrolled in concurrent college courses. Excellence in academics and 
extra-curricular activities has elevated Sequoyah as a leader in Indian 
education. Sequoyah is continually producing record numbers of Gates 
Millennium Scholarships as well as many state athletic titles. Within 
the last five years we have had 32 Gates Scholars.
    Sequoyah Schools has enjoyed many successes in the area of extra 
and co-curricular areas. Student athletes have advanced in every 
sporting arena consistently on an annual basis. Team leadership, self-
motivation, commitment, and cohesiveness valued above individual 
talent. The school also offers Robotics, Drama and Speech, Junior 
Achievement (a class designed to allow students to become 
entrepreneurs), and many other beneficial classes, clubs, and 
organizations.
    One of the reasons for success at Sequoyah and why my daughter 
attends is the sense of family, community and security. Each month I 
get a report of disciplinary incidents, last month the most significant 
number of infractions was 4 abuses of cell phones.
    The Cherokee Nation believes that teaching success begins at birth 
and that in order for our young Native American students to have the 
greatest likelihood to succeed that we need every opportunity to have a 
positive impact at the beginning. In order to build a continuum, from 
cradle to career, we have recently begun a Cherokee Language School 
beginning with preschool age students that not only focuses on the 
Cherokee language but covers all the core academic areas as well.
    In 2001, Tsalagi Tsunadeloquasdi was begun as a Language 
Preservation program. Twenty-six students and four staff members paved 
the way to revitalizing the language with our young people. Today we 
have over 80 students with our first class now entering the 5th grade 
this fall. Our students have excelled in the areas of technology and 
communication skills. The students in the school are being taught all 
of the core academic subject areas and are moving yearly towards higher 
standards. As a result of this program many adults have also been 
inspired to make a stronger commitment towards working to become more 
proficient in the Cherokee language. The mission of Tsalagi 
Tsunadeloquasdi is to promote the revitalization and usage of the 
Cherokee language while educating children in a safe and cultural 
environment. The Immersion School provides a culturally relevant 
foundation for education as well as prepping students to move on to 
Sequoyah Schools.
    The implementation of NCLB/ESEA at Sequoyah Schools has had both 
positive and negative impacts on our school and others. Many of the 
positive outcomes can be attributed to the increased accountability 
mandates. On the other hand holding everyone to general teaching and 
testing standards discourages creativity and critical thinking skills. 
Administrators often hold teachers accountable for test scores and many 
teachers in turn teach specifically narrow their focus and teach to the 
test objectives leaving many other beneficial skills and objectives 
out.
    We have identified from our language and cultural intelligence 
twelve attributes of Cherokee leadership and we are striving to align 
our curriculum, activities, teaching and learning to achieve for each 
student these attributes: respectful, determined, integrity, lead by 
example, communicate, confidence, cooperative, responsible, teach 
others, patience, humility and strength.
    The NCLB Act specifically has increased our accountability through 
standardized testing, highly qualified teacher requirements, specific 
teaching objectives in the core academic subject areas, and higher 
levels of transparency. Also as result general teaching and testing 
standards has discouraged creativity and the importance of teaching 
critical thinking skills. School Administrators are forced to hold 
teachers accountable for test scores and many teachers in turn 
specifically narrow their focus and teach to the test objectives 
leaving many other beneficial skills and objectives out. For this 
reason, criticisms of NCLB have often centered on why a high test score 
is more valuable than a well-rounded education that may include 
learning outcomes that are often not required by the common core areas.
    The Cherokee Nation feels that adjustments need to be included in 
the reauthorization of NCLB to better address the needs of Indian 
students. The Nation would specifically like to see less emphasis on 
testing and more flexibility in establishing our own measurables. We 
feel that a more diverse curriculum will better fit the needs of our 
students by including increased focus on Native Culture and Language. 
Culturally relevant education is successful with Indian students 
because there are certain inherent qualities that are interwoven that 
have helped us to face adversity, adapt, survive, prosper, and excel 
for generations. Our younger children, Immersion students included, are 
also forced to take tests in English while many students in rural areas 
are English Language Learners (ELL), meaning they arrive at school 
knowing little or no English which causes them to test poorly. We would 
like Uniform Standards that include Tribes as active participants in 
uniform standards development. If assessment is tied to standardized 
testing, tribes need to be heard so curriculum is relevant to native 
students. American Indian Language and History should be included in 
the standards.
    The Cherokee Nation believes that Johnson O'Malley (JOM) and 
similar programs should be utilized to supplement NCLB initiatives with 
updated formulas and funding to account for increased numbers of native 
students. Currently, the Nation receives funding for 19,000 students, 
but has over 22,000 students in the program. In years past, JOM funding 
has been omitted completely by the presidential budget request. The 
Cherokee Nation requests implementation of an updated funding formulary 
that will take into account the increased numbers of American Indian 
students, as well as proportional increases in funding to accommodate 
the increased numbers.
    Teacher Quality should be defined in a way that captures tribal 
concerns for teacher development and certification. The blueprint sets 
forth the modified requirement for ``effective'' teachers, mandating 
that states define effectiveness based on student performance. No Child 
Left Behind standards that require a Bachelor's Degree or its 
equivalent have eliminated the ability for many teachers in rural areas 
and tribal communities to achieve state certification. Tribes should be 
involved in the process of defining requirements for ``effective'' 
teachers, as the needs for teachers in tribal communities will differ 
from metropolitan areas. The definition of ``effective'' should take 
into consideration the unique barriers facing rural and tribal 
communities, and should allow creative solutions that encourage teacher 
development and student performance, while increasing accessibility for 
tribal teachers to enter the classroom.
    Programmatic changes necessary to smooth the way for certification 
and classroom teaching should be implemented to addressed when defining 
``Highly Qualified'' status. Access to technology and additional tribal 
specific grants are needed for tribes to assist their citizenry bridge 
between those having and those not having access to technology and 
internet within Indian Country. We request appropriate funding for 
carrying out all mandates of the reauthorization of ESEA.
    It is imperative that tribes are enabled to function in a 
governmental capacity, on par with state and local authorities in 
developing education systems. The Cherokee Nation has the necessary 
expertise to address the unique needs of Native American students as 
evidenced by the success of our schools. Active tribal input into the 
development of standards, curricula, and protocol is absolutely 
necessary if the United States wishes to see successful, culturally 
relevant education for Native students. Furthermore, Indian education 
is not a one-agency issue. Tribes need inter-agency collaboration to 
adequately plan for the future of Indian education.
    In closing I would like to thank the Committee for conducting this 
hearing on an issue that is of utmost importance to the Cherokee Nation 
and Indian Country as a whole. Indian education is a labor intensive 
issue that requires continual solidarity between tribal, state, local, 
and the federal government. The Cherokee Nation is optimistic that, as 
we move forward, the fruits of our labors and the inclusion of tribal 
concerns will lead to effective education policy that addresses the 
specific needs of American Indian students. Should you require further 
information, I invite you to contact the Cherokee Nation Washington 
Office.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Next, we will hear from Ms. Mary Jane Oatman-
Wak Wak, who is the President-Elect of the National Indian 
Education Association here in Washington, D.C.
    You may proceed. Thank you for being with us.

    STATEMENT OF MARY JANE OATMAN-WAK WAK, PRESIDENT-ELECT, 
             NATIONAL INDIAN EDUCATION ASSOCIATION

    Ms. Oatman-Wak Wak. [Greeting in native language]. Thank 
you for the opportunity to be able to present to you on behalf 
of the National Indian Education Association, the oldest and 
largest Indian education non-profit in the Country.
    I don't really feel the need to give you the background on 
the organization. You are all very familiar with NIEA and the 
work that we do. But I would like to take this opportunity to 
thank Chairman Dorgan for your ongoing relationship and for 
your great staff members and a special shout out to Denise 
Desiderio for maintaining direct contact with our organization 
and for allowing the opportunity for the rest of you and your 
staffers to be able to interface at high levels at NIEA to 
drive forward education reform for Indian Country.
    As stated, I am Mary Jane Oatman-Wak Wak. I am an enrolled 
member of the Nez Perce Tribe of Idaho and serve in the 
capacity or in the counterpart for Keith Moore's former 
position in South Dakota. I am in leadership and oversee the 
Indian education programs for the Idaho State Department of 
Education, which allows the opportunity to serve as a liaison 
for all of the Idaho tribes and provide support systems, 
technical assistance to public, charter and Bureau-funded 
schools within the State of Idaho.
    I have two beautiful young sons, eight years old and two 
years old, and so I am fully vested in the innovative 
approaches that we take for education not only as a product of 
public schools within the State of Idaho, but because of my 
responsibility as a parent and hopefully future grandparent as 
well, of our children that will be going through these schools.
    We all concurred, and there was a general consensus that 
Indian children were left behind with the No Child Left Behind 
Act. However, like Senator Tester brought up, the great things 
that were highlighted through that was shining the light on 
those dark corners where Indian children were hiding and where 
through a lack of disaggregated data, they were allowed to 
hide.
    When we talk about turnaround policies that were brought up 
earlier, I would like to highlight one of the practices, and I 
was very grateful to hear Charlie Rose with the Department of 
Education bring up the approach. I guess it reiterates that the 
Department of Education is also listening to the priorities 
that National Indian Education brings forward.
    Since 2005, NIEA has been in the field, has been holding 
our own field hearings to talk with our Indian constituencies, 
our members, our youth that are in these schools, about the 
problems, not so we can focus on those deficits, but so we can 
collaborate and provide different models and approaches for 
that kind of turnaround.
    One of those falls right in line with the first component 
of strengthening tribal education through ESEA, through the 
policy of respecting Indian self-determination and tribal 
sovereignty is just that, tribal sovereignty. The protection of 
natural resources throughout Indian Country is the mainstay of 
tribal governance. And throughout Indian Country, you will hear 
unanimously that we feel our greatest natural resource is our 
native children.
    Through allowing and authorizing and appropriating funds 
for support for tribal education departments as well as tribal 
education authorities, we feel that we will be able to move 
forward in that direction of providing the support, as well as 
the investment by and through Indian Country for that education 
reform and turnaround.
    The sustainability of Indian Country depends upon a well 
educated tribal citizenry of our children, so we feel it is 
imperative that the more effective government to government 
relations do occur in regards to the education of Indian 
children.
    There was also something that was brought up as well 
earlier about the ban of native languages. That is also another 
one of the priorities of the National Indian Education 
Association that we desire to see strengthened, not only 
through the policy language, but as well the funding and 
support for the revitalization of native languages within our 
communities.
    Charles Rose cited that through those past federal policies 
that there was a ban on native languages, and so we feel that 
there is a moral obligation from this Country to help restore 
those native languages, because it was those Federal policies 
that directly had the impact in the language loss throughout 
Indian Country.
    We also have as one of our priorities, and just to 
backtrack just a little bit, through the authorization of 
tribal education departments and tribal education authorities, 
prime opportunity to provide innovative models for potential 
research to look at what those outcomes are to see if they are 
worth extending. One of those is the authorization for TEDs and 
tribal education authorities to be able to act as a State 
education agency or authority.
    Through that model, we really feel that we will be able to, 
again, not only have that tribal community investment with 
education reform, but also it works at strengthening tribal 
sovereignty as a whole.
    Now, many of our tribes throughout the Nation are prepared 
to scale up projects where they have assessment systems in 
place, but far too many of our Indian nations throughout the 
Country are not at that point yet. So we feel that this would 
be a critical time to reauthorize, to provide that language and 
support so that we can find out what those proven effective 
practices are throughout Indian Country regarding the elevation 
of tribes and tribal education departments as a State education 
agency.
    One of the other areas that I would really like to briefly 
touch upon, as I see the clock ticking away, is that we have 
also brought forward on many occasions the elevation of an 
Assistant Secretary of Indian Education at the U.S. Department 
of Education.
    Chairman Dorgan, as well as Senator Tester, you might 
recall that NIEA was here in February. We were here during the 
heart of the largest historic blizzard ever in this beautiful 
town. And NIEA was here. And I know that that spoke volumes to 
our congressional leaders to see that we are very passionate 
about the work and the advocacy that we do for Indian Country.
    The reason I bring up that point is during our meeting with 
Charles Rose, that question was brought forward to him. And so 
it gives a lot of great optimism for NIEA to hear not only 
through the levels of consultation between the Department of 
Education and Department of Interior, that those communications 
are taking place at that level, but Mr. Rose also spoke to the 
fact that the Department of Education is exploring the 
elevation of that Title VII Director to a position of, or 
elevating it back to an Assistant Secretary position.
    Again, I would just like to take the opportunity to provide 
some closing remarks to you, Senator Dorgan, again for your 
support for Indian education and native students as the current 
and future leaders of Indian Country.
    [The prepared statement of Ms. Oatman-Wak Wak follows:]

   Prepared Statement of Mary Jane Oatman-Wak Wak, President-Elect, 
                 National Indian Education Association
    Chairman Dorgan and Members of the Senate Committee on Indian 
Affairs, on behalf of the National Indian Education Association (NIEA), 
thank you for the opportunity to submit testimony about the No Child 
Left Behind Act (ESEA) and Native students.
    Founded in 1970, NIEA is the largest Native education organization 
in the nation representing American Indian, Alaska Native and Native 
Hawaiian educators, tribal leaders, school administrators, teachers, 
elders, parents, and students. NIEA is dedicated to advocating for the 
unique educational and culturally-related academic needs of Native 
students and to ensuring that the Federal Government upholds its unique 
trust responsibility to these students and their communities.
    In examining the lessons learned from the last decade of NCLB, it 
is important to focus on the task before us. The task of making certain 
that the reauthorization of ESEA recognizes and supports the unique 
cultural, social, and linguistic needs of Native students in ways that 
ensure that no Native child is ever left behind.
No Child Left Behind Act (NCLB) and Native Students
    Since 2005, NIEA has been actively preparing for the 
reauthorization of NCLB, including conducting 11 field hearings with 
over 120 witnesses in Native communities across the country and the 
development of NIEA's Preliminary Report on NCLB in Indian Country and 
its NCLB Policy Recommendations. NIEA continued to conduct numerous 
listening sessions and meetings with Native students, educators, school 
administrators, Native parents, and tribal leaders to learn about the 
challenges Native people encountered under NCLB.
    What emerged through this extensive dialogue was an appreciation 
for the goal of Title VII of NCLB to meet the unique cultural and 
educational needs of Native children. However, it was clear that many 
areas of concern existed about how NCLB/ESEA was unable to fully 
address the educational needs of Native students and communities, along 
with ideas about how NCLB/ESEA could and should be improved. \1\ These 
areas of improvement included the need to:
---------------------------------------------------------------------------
    \1\ Please see NIEA's Preliminary Report on NCLB in Indian Country; 
2007-2009 Briefing papers on the Reauthorization of NCLB/ESEA; and 
NIEA's 2007 Testimony on the Reauthorization of NCLB in Indian Country 
for more detailed descriptions of these concerns. All are available at 
www.niea.org

  <bullet> improve and expand the ability of Title VII to address the 
---------------------------------------------------------------------------
        unique cultural and educational needs of Native children.

  <bullet> increase flexibility and Native control over the selection 
        and implementation of programs and services supporting the 
        learning of Native students.

  <bullet> improve consultation, collaboration, and cooperation among 
        tribes, states, and the Federal Government.

  <bullet> strengthen support for instruction in Native languages.

  <bullet> improve support and development of effective teachers of 
        Native students.

  <bullet> improve opportunities for the maximum participation of 
        parents, families, and tribes and Native communities in the 
        education of Native children.

  <bullet> improve and develop appropriate systems of assessment and 
        measurement of academic progress.

  <bullet> support the development and collection of comprehensive data 
        and research about the education of Native children.

  <bullet> increase funding for NCLB (ESEA), especially Title VII.

    Also clear was the deeply held commitment of Native communities for 
ensuring that Native students receive the highest quality education 
through instruction and methods that reflect an understanding and 
affirmation of their unique strengths and needs as Native people. While 
high standards and expectations for achievement, accountability of 
schools for the results of the education they provide, and access to 
rigorous curriculum are key components of this vision of high quality 
education, Native Ways of Knowing, or knowledge that is unique to 
Native tribes and cultures, are equally critical cornerstones for 
providing the kind of relevant and high quality instruction and 
education that ensures Native students attain the same level of 
academic achievement as students nationwide.
    In addition, Native parents, communities, educators, and tribes 
also spoke about the need to see the education of Native children 
beyond the context and content of schools. As stated in NIEA's 2005 
testimony before this Committee, \2\ there is a need ``to focus 
comprehensively on the needs of Native Children in light of the long 
and growing health and overall needs of Native children. Mental health 
issues including high levels of substance abuse, suicide rates, poor 
housing and health conditions all impact the capacity of Native 
children to learn and schools to be responsive to their principal 
education purposes. The future of Indian tribes and Native communities 
is not only dependent upon effective and meaningful educational 
programs but also upon healthy self confident and reliant young people 
growing and developing in strong families and communities. We must 
comprehensively develop strategies that engage families, communities, 
and tribes in every aspect of the care and education of Native children 
and young people.''
---------------------------------------------------------------------------
    \2\ Testimony of David Beaulieu, Ph.D., then President of the 
National Indian Education Association, before the Senate Committee on 
Indian Affairs on Indian Education on June 16, 2005. Available from 
NIEA.
---------------------------------------------------------------------------
    Based on this extensive input from Native communities, educators, 
parents, and tribes, NIEA has developed a set of recommendations to 
address the shortcomings of NCLB and to improve the ability of ESEA to 
meet the needs of Native students.
Recommendations for the Reauthorization of the Elementary and 
        Secondary Education Act (ESEA)
Strengthen Native American and Tribal Control of Education
    ESEA should reflect the modern federal policy of respecting tribal 
sovereignty and the self-determination \3\ of Native peoples, and the 
protection of Native American \4\ languages. Greater Native American 
control over the education of Native American students will lead to 
better results and healthier Native American communities.
---------------------------------------------------------------------------
    \3\ In understanding tribal sovereignty, it is important to 
understand that Native Americans are not a minority, ethnic, or diverse 
population, nor are they a racial group. Judicial decrees, federal 
statutes, executive orders and most importantly treaties distinguish 
American Indians and other Native Americans from any other group of 
people in the United States. Native Americans have a unique political 
status; they are a political classification, not a racial one, with 
unique guarantees in the United States constitution affirming their 
inherent right to sovereignty and self-determination. Unfortunately 
this political anomaly is misunderstood by federal officials who often 
times treat Indian education as a special interest constituency group.
    \4\ ``Native American'' is defined in the Native American Languages 
Act (NALA) as ``an Indian, Native Hawaiian, or Native American Pacific 
Islander.'' P.L. 101-477 (October 30, 1990).
---------------------------------------------------------------------------
    Over 90 percent of Native American children attend public schools 
throughout the nation. Native American students, who attend these 
schools often reside in economically deprived areas and are impacted by 
general programs for disadvantaged students, including Title I grants 
used for school improvement, state assessments, Pell grants to assist 
in accessing higher education, and funding to support English language 
acquisition.
    However, Native American students have unique educational needs 
that can only be met through increased Native American sovereignty and 
self-determination in the education of these students.

  <bullet> Restore the position of Director of Indian Education, now a 
        Title VII grant manager position, to Assistant Secretary for 
        Indian Education, with authority to engage in various titles of 
        the ESEA that touch Native education. The Assistant Secretary 
        of Indian Education also should be authorized to facilitate ED 
        and DOI collaboration and implement the role of Tribal 
        Education Departments and Agencies (TEDs/TEAs) within various 
        titles.

  <bullet> Respect the sovereign status of Indian tribes by elevating 
        the authority of Tribal Education Departments and Agencies 
        (throughout various titles in ESEA that touch Indian Country, 
        giving TEDs the same access to federal funding and education 
        planning resources as State Education Agencies (SEAs) and Local 
        Education Agencies (LEAs). As mandated in many treaties and as 
        authorized in several federal statutes, the education of Indian 
        children is an important role of Indian tribes. Tribal 
        Education Departments (TED) provide tribes with the 
        opportunities to become actively involved in the education of 
        their children. Despite this authorization and several other 
        prior statutes, federal funds have never been appropriated for 
        TEDs. The use of TEDs would increase tribal accountability and 
        responsibility for their students and would ensure that tribes 
        exercise their commitment to improve the education of their 
        youngest members.

  <bullet> Require federal agencies and states to collaborate with 
        Indian tribes to ensure adequate planning and support for 
        Native learners and Native education providers. Require 
        Department of Education (ED) and Department of the Interior 
        (DOI) cooperation that opens greater ED financial and technical 
        support for DOI Indian schools, including the opportunity for 
        alternative measurement assessments and the development of 
        tribal measurements of academic progress.

  <bullet> Support and fund programs and practices that ensure the 
        maximum participation of Native parents, families, and tribal 
        communities. Resources should be specifically designated to 
        tribal communities to support parent and family involvement in 
        schools, including evening activities, funding for 
        transportation, and support groups for parents of children with 
        disabilities.

  <bullet> Support the development and collection of comprehensive data 
        and research about the education of Native children, including 
        improved data collection and sharing of data with tribes. 
        Specific resources should be allocated to conduct Native driven 
        and Native focused research on culturally and linguistically 
        based education and best practices in order to determine 
        research supported ways to improve Native student achievement 
        and how to develop and determine appropriate academic measures 
        of school success. In addition, there should be resources to 
        support data collection about the migratory nature of Native 
        students, Native students with disabilities, and assist with 
        the need for proper enrollment and placement of Indian 
        students. This should include targeted efforts at building 
        capacity in Native education systems to develop, implement, 
        collect and analyze systematic data on the educational status 
        and needs of Native students. Support for partnerships between 
        Native educational school systems and the Departments of 
        Education and Interior that would support initiatives focused 
        on Native education program services and program 
        accountability.
Ensure Consultation and Collaboration
    A unique government-to-government relationship exists between 
federally-recognized Indian tribes and the Federal Government. This 
relationship is grounded in numerous treaties, statutes, and executive 
orders as well as political, legal, moral, and ethical principles. This 
relationship is not based upon race, but rather is derived from the 
legal status of tribal governments. The Federal Government has enacted 
various regulations that establish and define a trust relationship with 
Indian tribes. An integral element of this government-to-government 
relationship is that consultation occurs with Indian tribes. President 
Obama recently re-affirmed this relationship with an Executive 
Memorandum, which requires each federal agency to develop a plan to 
implement consultation and coordination with Indian tribal governments 
as required by Executive Order 13175.
    Therefore, the reauthorization of the ESEA must:

  <bullet> Include specific language requiring the Department of 
        Education to consult with tribal governments. Whenever the 
        Department of Education consults with States or local education 
        agencies, tribes should also be specifically included.

  <bullet> Engage in meaningful consultation with Native American 
        tribes and communities as outlined by President's Obama's 
        promise to tribal leaders. This can be accomplished through the 
        following recommendations:

          1.  Tribes should define, in coordination with Department of 
        Education officials, where consultation is expected and 
        important.

          2.  Tribes and the Department of Education should agree on a 
        consistent consultation schedule, including agreeing on 
        locations and time considerations for consultations.

          3.  The Department of Education must give advance 
        notification of consultation hearings and coordinate topic 
        areas with tribes. Recently Secretary Duncan announced pending 
        consultation hearings throughout Indian Country; it is not too 
        late for the Department of Education to include tribal 
        stakeholders in the planning of these hearings.

          4.  Tribes must have an opportunity to call for consultation 
        on matters that are of high concern rather than the Department 
        of Education holding exclusive authority to call for 
        consultations.

          5.  Tribes should control who speaks for them and what the ED 
        considers to be the official tribal view.

          6.  The Department of Education should disclose what weight 
        is being given to tribal views and report back to tribes in a 
        timely manner.

          7.  The Department of Education should justify its 
        promulgation of rules, regulations and policy when they are 
        advanced in opposition to tribal views acquired through 
        consultation.

          8.  The Department of Education should take advantage of 
        existing tribal gatherings where a critical mass of elected 
        tribal leadership will be present to build consultation venues, 
        one such venue should be the annual NIEA convention.

  <bullet> Establish a tribal advisory committee to advise the 
        Secretary of the Interior on policy issues and budget 
        development for the BIE school system. There has never been a 
        formal, established mechanism for tribally-operated schools to 
        raise issues and provide substantive advice to the Secretary on 
        an on-going basis--especially on development of the budget 
        request for programs serving BIE schools. Since the schools in 
        the BIE system are the sole responsibility of the Federal 
        Government, the Secretary of the Interior should be consulting 
        closely and regularly with representatives selected by the 
        tribes and the tribal school boards who operate those schools 
        to learn directly from them about their needs and hear ideas 
        about how to fill those needs.

Support Instruction of Native American Languages and Culturally Based 
        Education
    NIEA supports and appreciates the commitment to immersion schools, 
Native language instruction, and culture in the education of Native 
American students expressed in the A Blueprint for Reform: 
Reauthorizing the Elementary and Secondary Education Act.
    Both the Blueprint and Title VII of ESEA \5\ recognize that Native 
children have unique educational needs due to their cultures and 
backgrounds. The purpose of Title VII \6\ of ESEA is to provide 
culturally based educational approaches for Native students and to 
support the Native language. These approaches have been proven to 
increase student performance and success as well as awareness and 
knowledge of student cultures and histories. In general, these 
approaches include recognizing and utilizing Native languages as a 
first or second language, pedagogy that incorporates traditional 
cultural characteristics, and involves teaching strategies that are 
harmonious with the native culture knowledge and contemporary ways of 
knowing and learning. It also includes curricula based upon Native 
culture and language that utilizes legends, oral histories, songs and 
fundamental beliefs and values of the community. In addition, it 
involves parents, elders and cultural experts as well as other 
community members' participation in educating Native children utilizing 
the social and political mores of the community. \7\
---------------------------------------------------------------------------
    \5\ Part A of Title VII deals specifically with the education of 
American Indians and Parts B and C address the educational needs of 
Native Hawaiian and Alaskan Native students.
    \6\ Title VII of the ESEA incorporates the Indian Education Act of 
1972.
    \7\ Demmert, W. G. & Towner, J. C. (2003). A Review of the Research 
Literature on the Influences of Culturally Based Education on the 
Academic Performance of Native American Students. Northwest Regional 
Educational Laboratory, Portland OR.
---------------------------------------------------------------------------
    Current research demonstrates that culture and language can be 
successfully integrated into the classroom in a manner that would 
provide Native students with instruction in the core subject areas 
based upon cultural values and beliefs. Math, reading, language arts, 
history, science, physical education, music, cultural arts and other 
subjects may be taught in curricula instilled in Native traditional and 
cultural concepts and knowledge. The National Science Foundation funded 
Native Science Connections Research Project at Northern Arizona 
University, is a research model that successfully integrated native 
language, culture and traditions into BIA funded schools' science 
elementary curriculum. On-going analysis of data revealed increased 
student mastery of science and math concepts, deeper levels of student 
engagement in science and math and increased student achievement in 
math and science. \8\
---------------------------------------------------------------------------
    \8\ The Reauthorization of No Child Left Behind in Indian Country: 
Hearing before the U.S. House of Representatives Education and Labor 
Committee, 110th Cong., 1st Sess. (2007) (testimony of Dr. Willard 
Sakiestewa Gilbert, President-Elect, National Indian Education 
Association).
---------------------------------------------------------------------------
    NIEA believes ESEA should reflect the policy mandates of the Native 
American Languages Act (NALA), which encourages Native American 
languages as a medium of instruction to increase overall Native student 
achievement.

  <bullet> Title I should (1) include schools using a Native language 
        as the medium of instruction similar to those of Puerto Rico; 
        (2) Allow for alternative measurement assessments, AYP 
        standards, and teacher qualifications relative to the teaching 
        of Native American students based in unique linguistic, 
        cultural, and political status considerations. Include federal 
        assistance and recognition of meeting tribal AYP standards as 
        an alternative to meeting state AYP standards for schools 
        enrolling Native American students; (3) authorize the 
        credentialing of Native language teachers under the definition 
        of highly qualified and upon recommendation by a tribal 
        government or other Native governing entity; (4) accommodate 
        limited Native language proficient students in Native language 
        medium schools (Sec. 1111) similar to Limited English 
        Proficient (LEP) accommodations.

  <bullet> Authorize a formula grant program in Title VII to support 
        immersion schools, including tribally-operated, private, and 
        Bureau-funded schools.

  <bullet> Establish a Part D in Title VII that authorizes early 
        childhood immersion infant-kindergarten learning centers.

  <bullet> Title III amendments should include provisions and funding 
        to support Native language instruction and remove barriers to 
        full fledged instruction in Native languages, acknowledging 
        that most Native learners enter school with limited English 
        proficiency, even if they are English only speakers.

  <bullet> Restore Culturally Based Education Technical Assistance and 
        Resource Centers, technical assistance centers that would 
        provide regional support to Title VII programs, advance 
        Culturally Based Education (CBE) best practices, and promote 
        teaching strategies that integrate Native traditional and 
        cultural concepts into curricula.

  <bullet> Give preference to Tribal Colleges and Universities and the 
        Hawaiian Language College in receiving funding to develop 
        Native American language resources and skills for community 
        members, which would provide greater support for learning and 
        using Native American languages in local schools, similar to 
        the support for district language needs of young immigrant 
        school community members.

Improve Support for Teachers of Native Students
    NIEA supports Administration efforts to increase the number of 
effective teachers and principals, including an initiative to increase 
the number of teachers for low income and minority students.
    More than any other community in America, Indian Country suffers 
from a paucity of highly skilled teachers. Regardless of success in 
other schools or academic credentials, highly effective teachers do not 
necessarily see their success as educators transfer to tribal settings. 
For this reason and a host of cultural differences, specialized 
training for teachers and other education practitioners serving Native 
American students is critically important and should be a part of any 
ED initiative to elevate and strengthen quality of instruction.
    Teaching in schools serving Native American students needs to be 
incentivized through a combination of quality housing, financial 
compensation, loan forgiveness, upward mobility, and professional 
development. Currently with the vast majority of Bureau funded and 
public schools on tribal lands classified as failing or in need of 
improvement there is little incentive for highly qualified teachers to 
work in these schools. Combined with extreme and persistent poverty, 
ongoing social problems, lack of housing, isolated rural settings, and 
dangerously poor facilities, the majority of schools serving Native 
American students are at a deep disadvantage in recruiting and 
retaining a critical mass of highly qualified teachers.
    NIEA believes ESEA should authorize greater support of teachers of 
Native students, utilizing the particular expertise of the tribal 
colleges, universities, the Hawaiian Language College and the School of 
Hawaiian Knowledge. Tribal Colleges and Universities should be the 
primary training campuses for both Indian educators and non-Indians who 
are working with Native learners.

  <bullet> Require set asides for the training, recruitment and 
        retention of teachers of Native students. This should include a 
        Tribal Priority Allocation under the proposed initiative to 
        increase the number of teachers for low income and minority 
        students within the Department f Education to ensure that 
        Indian Country is fully vested in this initiative and receives 
        a fair apportionment of the requested 3.9 billion.

  <bullet> Support Tribal Colleges and Universities, the Hawaiian 
        Language College, and the School of Hawaiian Knowledge should 
        to be supported through Title II and VII provisions so that 
        they can play a central role in developing a critical mass of 
        educators for Native learners.

  <bullet> Authorize a tribal ``Teacher Preparation Initiative'' geared 
        towards educators who are working in schools serving Native 
        American students and educators who are interested in working 
        at schools serving Native American students. This should also 
        include provisions for improved and appropriate teacher 
        evaluation systems and support for more effective career 
        advancement systems.
Adequate Funding for Native Education Under ESEA
    When NCLB was enacted, Congress promised to provide the resources 
necessary to meet its many requirements, provide school improvement 
funds to schools that failed AYP, provide increased resources 
especially for disadvantaged students and to help close achievement 
gaps by improving teacher quality, student achievement, and program 
accountability. However, NCLB was never funded at the authorized 
levels.
    Title VII, especially, provides critical support for culturally 
based education approaches for Native students and addresses the unique 
educational and cultural needs of Native students. It is well 
documented that Native students thrive academically in environments 
that support their cultural identities while introducing different 
ideas. Title VII has produced many success stories but increased 
funding is needed in this area to bridge the achievement gap for Native 
students.
    Therefore, NIEA supports the:

  <bullet> Adequate funding of Title I programs.

  <bullet> Adequate funding for the following programs within Title 
        VII: Indian Education, Alaska Native Education Equity, and 
        Education for Native Hawaiians.

  <bullet> Improved oversight of the allocation and use of Title VII 
        resources so they cannot be supplanted to meet the shortfalls 
        in other Titles of ESEA or of public school budgets.

Conclusion
    Mr. Chairman, on behalf of NIEA thank you and the Committee for the 
tremendous efforts on behalf of Native communities. With your support 
we are hopeful that the reauthorization of ESEA will help ensure that 
Native students receive the high quality education that they need and 
deserve.
    Chairman Dorgan, we especially thank you for your personal 
commitment in championing the cause for all Native Americans, but 
especially for your unwavering dedication to improving the education 
and well being of Native children. We extend our best wishes as you 
move on to new endeavors. We will greatly miss your leadership and 
friendship.

    The Chairman. Thank you very much for your testimony. We 
appreciate that.
    Next, we will hear from Mr. David Beaulieu from Milwaukee, 
Wisconsin.
    Dr. Beaulieu?

         STATEMENT OF DR. DAVID BEAULIEU, PROFESSOR OF 
          EDUCATION POLICY AND DIRECTOR OF THE ELECTA 
QUINNEY INSTITUTE FOR AMERICAN INDIAN EDUCATION, UNIVERSITY OF 
                           WISCONSIN

    Dr. Beaulieu. Mr. Chairman, Members of the Committee, my 
name is David Beaulieu. I am an enrollee of the Minnesota 
Chippewa Tribe from the White Earth Indian Reservation, and I 
currently serve as a Professor of Education Policy and Director 
of the Electa Quinney Institute for American Indian Education 
at the University of Wisconsin, Milwaukee.
    I have testified before this Committee before in former 
positions a number of times as Director of the Office of Indian 
Education during President Clinton's second term when we worked 
on the Executive Order for American Indian Education, and as 
President of the National Indian Education Association in 2005 
as we began to understand and try to figure out a response to 
our constituencies' significant concern about NCLB and what was 
occurring in Indian Country.
    I appreciate the invitation to testify on NCLB and the 
education of American Indians.
    I believe we need a new approach. Any comparison of the 
intentions of Congress as stated in the Indian Education Act 
and a broader intention of NCLB to make a significant 
difference with the current statistics describing the 
performance of State and Federal school systems with American 
Indians would strongly indicate that what is in place is not 
working.
    We may have actually lost ground with what is essentially 
one entire school generation of American Indian learners from 
elementary through high school in the nine years since NCLB has 
been passed in 2001. Though education achievement issues have 
received a focus through NCLB with the emphasis on testing, the 
larger issue for Indian communities is the extent to which the 
student constituents of schools, both State schools and Federal 
schools, reject schooling altogether.
    An education leader and a very old friend from Rosebud, 
Lionel Bordeaux, just told me and reported that approximately 
75 percent of all the students that entered the ninth grade in 
the local high school did not graduate this year. The same was 
true last year. And that is a statistic that is believed to be 
representative of other similar areas and school systems.
    In answer to the question posed by the Committee, NCLB has 
left Indian students behind. I believe NCLB has left Indian 
students behind essentially because the Indian Education Act, 
Title VII within NCLB, has been left behind. That is a pearl 
within an oyster. The provisions affecting Congress' 
intentions, as well as the strategies for the education of 
American Indians and Alaska Natives is stated in Title VII, 
have been de-emphasized or disregarded by the Department of 
Education, the Bureau of Indian Education, State education 
authorities and local education agencies in lieu of the 
operating principles or purposes of NCLB.
    There are a number of areas I would suggest that we need to 
take a look at and consider. I think we need to align the 
purposes of Title VII in the Indian Education Act with Title I. 
There is an incongruence between the purposes and requirements 
of Title VII and the basic program requirements and 
consequently the implementation of NCLB by State public schools 
and the BIE for Federal and tribal schools for American Indian 
students. This incongruence is significant and needs to be 
changed so that NCLB works in the best interests of American 
Indian students.
    The Indian Education Act requires a comprehensive plan for 
meeting the needs of American Indian students by local 
education agencies based on a comprehensive local assessment of 
needs of those students, the actual needs of the students, 
which we don't ever really see. These comprehensive plans must 
be consistent with State and local education plans submitted 
under NCLB.
    There is no articulation of that intention to have these 
comprehensive plans related to State and local plans as 
required in NCLB in Title I. Consequently, it is not considered 
anything anybody wishes to accomplish.
    I think we need to enable tribal governance in education. 
There is a statement in the Indian Education Act which tribal 
governments actually cheered when it occurred with the passage 
of NCLB, that says it is the policy of the United States to 
fulfill the Federal Government's unique and continuing trustee 
relationship with Indian people for their education. It 
includes education for the first time as an aspect of the 
trustee relationship written into statute.
    The current input and advice structures that do exist 
within NCLB for Indian parents and tribal governments for the 
education of American Indians are extremely ineffective, so 
limited in scope and in character, that school authorities 
rarely pay attention to them. I believe the Federal trustee 
relationship must become a viable and active relationship for 
tribal governments, which includes tribal authority determines 
the context and conditions for the education of American Indian 
students under a Federal framework.
    I believe we also need to consider incorporating Federal 
native language policy into NCLB. There is existing 
incongruence with Congress' intention regarding the 
preservation and maintenance of native languages with our 
education statutes and I think we need to bring the principles 
and purposes of the Native Languages Act and the Esther 
Martinez Native Languages Act into NCLB and consider the way in 
which those policies could be made to work with our education 
statutes.
    Lastly, I think we need to very significantly focus on 
coordinated programs to focus on the well-being of Indian 
children and youth in Indian communities. I think this is vital 
and I think it must be a part of the way in which we plan for 
education improvement.
    Lastly, I think we need a new Indian Education Act, one 
which brings the purposes of the existing Indian Education Act 
fully to the forefront of the purposes of ESEA and NCLB; an 
Indian Education Act which recognizes tribal government 
authority in the context of the Federal trustee relationship 
for the education of American Indians.
    We need a system of education which makes sense to American 
Indian people and Indian students who all desire to be actively 
engaged in creating their own future, while maintaining their 
continuity with their unique language and cultural heritage.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Dr. Beaulieu follows:]

Prepared Statement of Dr. David Beaulieu, Professor of Education Policy 
   and Director of the Electa Quinney Institute for American Indian 
                   Education, University of Wisconsin
    My name is Dr. David Beaulieu. I am a Minnesota Chippewa Tribe--
White Earth enrollee. I currently serve as a Professor of Education 
Policy and Director of the Electa Quinney Institute for American Indian 
Education at the University of Wisconsin--Milwaukee. It is my pleasure 
to testify before this committee concerning Indian Education and the No 
Child Left behind Act considering the question: Did the No Child Left 
Behind Act Leave Indian Children Behind.
    I have testified before this Committee in the past concerning 
Indian education as Director of the Office of Indian Education in the 
U.S. Department of Education during President Clinton's second term and 
the implementation of the President's Executive order on American 
Indian and Alaska Native Education and as President of the National 
Indian Education Association (NIEA) in 2005. It was in 2005 that the 
American Indian, Alaska Native and Native Hawaiian constituents of NIEA 
became increasingly concerned about the implementation of NCLB, Title 
VII. NIEA determined to conduct hearings on NCLB in Indian Country in 
11 different Native American communities from Northern Wisconsin to 
Hawaii to better understand and represent the views of NIEA 
constituents which are the constituents of Title VII. The Report NCLB 
in Indian Country is available on line at NIEA.
NIEA Hearings: NCLB in Indian Country
    Despite the variety of locations at which hearings were held on 
NCLB by the NIEA and the number of witnesses who testified, the overall 
nature of testimony showed remarkable consistency in viewpoint. What 
emerged from the testimony were strongly held positive views about the 
public purposes of education for Native peoples against which NCLB and 
Native education was positioned. Witnesses strongly believe that a 
public education with broad public purposes focused not only for the 
world of work but for citizenship that was also reflective and 
supportive of their unique cultural and historical experience would 
provide well educated and contributing tribal citizens to the local 
tribal community as well as the broader community. In that regard the 
American Indian witnesses who testified were not that different than 
other American citizens.
    Those who testified strongly supported the need to hold schools 
accountable for results but were very concerned about the negative 
impacts of NCLB upon the education of Native American students. Many of 
the views were similar to a growing chorus of negative views such as 
the impact upon the breath of the curriculum given the focus on 
testing, the inappropriate use of AYP, particularly in American Indian 
communities where the mobility rates of students were very high. Some 
comments were very specific to the Indian Education Act within NCLB 
itself in terms of NCLB's negative impact upon Native language and 
cultural programs in schools and the development of instructional and 
curricular approaches believed to be effective and meaningful for 
accomplishing and enriching the education programs for Native American 
students as well as the required input of parents in the development 
and approval of Indian education programs.
    Significant to what was happening tribal leaders, Indian parents 
and educators focused attention on the realization of the extent to 
which changes were occurring that did not reflect much less consider 
their voice. Since then there has been a growing strong voice for 
increasing tribal government involvement beyond school operations to 
include determining the context and conditions for the education of 
American Indian students within the jurisdictions of tribal governments 
as well as influencing the federal interest for the education of 
American Indian students in other areas within the states. The 
development of a broader role for tribal government to determine the 
context and conditions for the public education of American Indian 
students seems apparent.
    Witnesses were very concerned that Indian education programmatic 
effort uniquely supported by formula grant programs in Title VII. These 
efforts that were supported by a relatively small approximate $300 per 
student were being supplanted by efforts that were clearly allowable in 
Title I. In many cases the Indian education formula grant was becoming 
a Title I program with little focus on it purposes as stated in 
statute. The NIEA Report NCLB in Indian Country is located on the NIEA 
web site's education issues page http://niea.org/issues/policy.php.
New Approach Needed
    Any comparison of the intentions of Congress as stated in the 
Indian Education Act and the broader intention of NCLB to make a 
significant difference with the current statistics that describe the 
performance of the State and Federal school systems with American 
students would strongly indicate that what is in place is not working. 
We may have actually lost ground with what is essentially one entire 
school generation of American Indian learners from elementary through 
high school in the 9 years since NCLB passed in 2001.
    As early as 2003 the Council of Chief State School Officer (CCSSO) 
representing the state school officers with large American Indian 
student populations began to meet first in Denver to express concern 
and consider ideas on how to approach what was a significant and 
growing issues to them concerning the education of American Indians in 
their states, particularly within reservation area state public 
schools. An education leader and old friend from Rosebud, Lionel 
Bordeaux, reported that approximately 75 percent of all students that 
entered the 9th grade did not complete high school this past year. Such 
a statistic is believed to be representative for other areas. Though 
educational achievement issues have received focus through NCLB with 
its emphasis on testing, the larger issue for American Indian 
communities is the extent to which the student constituents of schools 
reject schooling all together. There is a belief that the operational 
reality of NCLB in schools contributes high dropout rates.
    I would like to offer my insights concerning issues with the Indian 
Education Act and its implementation within NCLB for the purpose of 
suggesting a new framework for considering changes that would 
strengthen the ability of the Elementary and Secondary Education Act 
and the Indian Education Act to accomplish the intentions Congress 
regarding improving the effectiveness, and meaningfulness as well as 
the quality of educational programs for American Indians.
    In answer to the question posed by this hearing it is my view that 
the No Child Left behind Act has left Indian students behind. I believe 
NCLB left Indian students behind essentially because the Indian 
Education Act within NCLB has been ``left behind''. The provisions 
affecting Congress' policy intentions for education of American Indians 
and Alaska Natives have been de-emphasized or disregarded by the 
Department of Education, the Bureau of Indian Education, and state 
education authorities.
Issues and Needs
    1. Alignment of Title VII purposes with Title I: The NCLB has a 
number of issues which are structural in character with the 
relationship of Title VII with in NCLB. The implementation of the 
intentions of Congress for the education of American Indians as 
indentified by the purposes of the Indian Education Act have no 
identifiable linkage within the basic program requirements in Title I. 
There must be an alignment of the required comprehensive Indian 
education plans required in Title VII with the requirements for state 
and local education plans by states and the BIE.

    2. Enable tribal education governance: The advice and input 
structures put into place for American Indian parents and tribal 
governments within statute are impotent to the task of creating 
positive local education change. What is available, however, is of 
limited scope, advisory and often not paid any attention. The avenues 
available to express a parental and tribal government voice are 
essentially irrelevant for generating local positive education change 
within the existing federal education framework provided by NCLB. The 
federal trustee relationship must become a viable and active 
relationship for tribal governments which includes tribal authority to 
determine the context and conditions for the education of American 
Indian students under a federal framework for all school systems within 
a tribal jurisdiction and for the federal interest for the education of 
American Indians in state school systems elsewhere. Create a tribal-
state compact or agreement for the education of American Indians under 
a federal framework which allows the context and conditions of the 
education American Indian students consistent with comprehensive 
education plans. For proposes of ESEA this would include BIE acting as 
a ``state'' for purposes of education.

    3. Incorporate federal Native language policy into NCLB: There 
exists incongruence with federal laws related to protecting and 
preserving Native American languages such as the Native American 
Languages Act and the Ester Martinez Native Language Preservation Act 
with the NCLB. Theses efforts include support for a number of Native 
language immersion schools and programs operating in state public 
schools and BIE funded schools. School time is prime time that can be 
spent in the learning of a Native language. Title VII supports native 
language and culture programs; other areas of NCLB particularly Title I 
and Title III need to reference to the Federal Government's support for 
the preservation and maintenance of Native American Languages as well 
as accommodating the needs of Native language immersion efforts with 
regard to allowing assessments in the language of instruction in the 
early years for student in Native language medium school based 
programs.

    4. Coordinated tribal government focus on the wellbeing of Native 
children and youth: There is a need to significantly improve the well 
being of American Indian children and youth in concert with revitalized 
efforts to improve the education of American Indian students. These 
concerns are inseparably linked and require a coordinated response of 
tribal government as suggested with all school systems, state and BIE 
within a tribal jurisdiction. The need is to recognize schools as more 
then places of schooling put as places of community. Efforts generally 
allowable in NCLB such as Promise Neighborhoods, 21st Century Learning 
Centers, and Successful, Safe and Healthy Students efforts need to 
become models for school development utilizing a coordinated tribal 
education involvement along with coordinated human service delivery 
efforts focused on school communities.
Expansion of Recommendations
1. Alignment of Comprehensive Indian Education Plans (Title VII) With 
        State and Local Education Plans (Title I)
    Since the passage of NCLB there has been a growing incongruence 
between the purposes of Title VII and the general operating principles 
and consequently the implementation of NCLB by state public schools and 
the BIE for federal and tribal schools for American Indian students. 
This incongruence is significant and needs to be changed so that NCLB 
works in the interests of American Indian students.
    The broad purpose of Title VII (section 7101) is stated as follows 
``It is the policy of the United States to fulfill the Federal 
Government's unique and continuing trust relationship with and 
responsibility to the Indian people for the education of Indian 
children. The Federal Government will continue to work with local 
educational agencies, Indian tribes and organizations, postsecondary 
institutions, and other entities toward the goal of ensuring that 
programs that serve Indian children are of the highest quality and 
provide for not only the basic elementary and secondary educational 
needs, but also the unique educational and culturally related academic 
needs of these children.
    The Indian Education Act not only seeks to assist schools to 
improve the achievement of Indian students in academic subjects and in 
ways that uniquely involve culturally based educational approaches and 
the expansion of educational opportunities; it also seeks to ensure 
that schools with Indian students reflect the cultural heritage of 
those students directly.
    The goal of improving the academic achievement of American Indian 
students is not the sole responsibility of Title VII and is shared by 
the other titles of NCLB; consequently it is vital that the expression 
of purposes for the education of American Indian students have a vital 
influential connection with the basic program requirements of NCLB. 
Looking to the Indian education Act there exist language to address 
that need but it is not paid any attention.
    The Indian education Act is not only comprehensive in its scope in 
terms of what programs can be offered through funds but most 
importantly it also intends to be the statutory vehicle that focuses 
reform of schools as it affects Indian students uniquely through the 
required development of a comprehensive program design required of 
schools that engages other federal efforts within NCLB particularly 
Title I and state resources and as well as efforts offered specifically 
through the Indian Education Act to meet the comprehensive needs of 
Indian students.
    The recognition that education is an aspect of the trustee 
relationship of the Federal Government to American Indian tribes, 
included for the first time in NCLB; the propose of meeting the unique 
educational and culturally related academic needs of American Indian 
and Alaska Native students as a distinct concern and through teaching 
and educational approaches appropriate to the accomplishment of 
required standards; the requirement for a comprehensive plan for 
meeting the education needs of American Indian students by a local 
education agency based on comprehensive local assessment and 
prioritization of the unique educational and culturally related 
academic needs of the American Indian and Alaska Native students; the 
requirement for a description of how the best available talents and 
resources, including individuals from the Indian community will be used 
to meet the needs of Indian students, finds no voice in the statute 
except in Title VII and despite the fact that Title VII programs are in 
nearly every State public school with American Indian students and all 
BIA funded school in the country both the States and the BIA in 
reliance of the operating principals and state and local plans of NCLB 
increasing disregard or do not pay attention to the principles and 
purposes of Title VII.
    The formula grant program which contains the requirement for local 
education agencies to develop comprehensive education plans for the 
education of American Indian students is currently funded at 
approximately $300 per eligible student in a local LEA. Those funds are 
used entirely to offer programs for Indian students within schools for 
the purpose of meeting the unique education and culturally related 
needs of American Indian students.
    It is impossible and unreasonable to consider that the approximate 
$300 available through the formula grant program should be the sole 
basis for meeting the educational needs of American Indian students and 
improving the education ability of schools with American Indian 
students to meet those needs through a comprehensive program design. It 
is also impossible and unreasonable to assume that $300 per student is 
sufficient to accomplish the development of a comprehensive plan as 
required in the statute and as it should be accomplished to meet the 
educational needs of American Indian students as defined in the 
statute.
    There is a linkage in Title VII to the rest of NCLB in the section 
that requires that comprehensive plans be consistent with the State and 
local plans submitted under NCLB including academic content and student 
academic achievement goals for American Indian students, and benchmarks 
for attaining such goals, that are based on the challenging State 
academic content and student academic achievement standards adopted 
under Title I for all children how Federal, State, and local programs, 
especially programs carried out under Title I, will meet the needs of 
American Indian students; the professional development opportunities 
that will be provided, as needed, to ensure that teachers and other 
school professionals who are new to the Indian community are prepared 
to work with Indian children; and that all teachers who will be 
involved in programs assisted have been properly trained to carry out 
such programs and describes how the local educational agency will 
periodically assess the progress of all Indian children enrolled in the 
schools of the local educational agency, including Indian children who 
do not participate in programs assisted under this subpart, in meeting 
the goals described in paragraph. The requirement that comprehensive 
plans be consistent with state and local plans does not mean that they 
must be the same. They can be aligned and incorporated within state and 
local plans.
    Though these requirements are in Title VII there is no comparable 
language in the basic program requirements of NCLB for state and local 
plans which would provide the guiding light for the long term 
development of educational programs for American Indian students nor is 
there a viable mechanism to accomplish an American Indian State and 
local education plan. This needs to change.
2. Tribal Government Involvement
    The statement ``It is the policy of the United States to fulfill 
the Federal Government's unique and continuing trust relationship with 
and responsibility to the Indian people for the education of Indian 
children'' in Title VII requires greater definition and viability in 
the ESEA. The current input and advice structures in ESEA for Indian 
parents and tribal governments for the education of American Indians 
are extremely ineffective, so limited in scope and advisory that school 
authorities rarely pay attention to them.
    Parent advisory committees have little impact on the long term 
development of school education programs and tribal government 
involvement in Impact Aid is limited to complaining that policies and 
procedures for parent advisory input have not been developed. The NCLB 
recognizes the ability of tribes to seek a waiver of AYP and develop 
their own standards, use state standards or use BIE developed standards 
for BIE funded schools but support for this was withdrawn as the BIE 
moved BIE funded schools to the state standards and assessment systems 
where the school was located.
    Nonetheless alternative definitions of AYP are allowable for tribal 
governments in the case of tribal schools and tribal governments could 
potentially develop these alternative standards and assessments systems 
including developing state and local education plans which are 
incorporated into state and local education plans required by NCLB 
consistent for all schools within a tribal jurisdiction, federal and 
state.
    The current political legal structure of Indian education, the 
relationship of state, federal and tribal governments in the education 
of American Indians was put in place with the original Johnson O'Malley 
program that withdrew significant federal involvement in the education 
of American Indians in favor of increased state public school 
involvement under certain conditions. The Federal Government attempted 
to see that the unique needs of Indian students were met in these state 
schools initially in state contracts for JOM and funds provided the 
state for this specific purpose. Minnesota's original contract with the 
Federal Government had language where the state agreed to meet the 
unique needs of Indian students, ensure that Indian students were not 
denied that provided other students and to maintain schools in 
distinctly Indian villages for Indian students.
    It can be argued that the Indian Education Act of 1972 that passed 
approximately 35 years after the negotiation of the JOM contracts was 
an attempt to continue to have states uniquely focus on the needs of 
American Indian students in state public schools irrespective of 
location.
    It is this arena of the interrelationships of federal, state and 
tribal government involvement in Indian education that needs to be 
impacted in a positive manner for Indian education. This arena is among 
the most complex imaginable with each government providing schools for 
Indian students often in the same community with overlapping programs, 
regulations and services that have little coordination or common 
purpose and with very little or no coordinated effort.
    Issues concerning the complexity of the intergovernmental arena 
with Indian education were identified as the first JOM contracts were 
being negotiated in the 1930s though recent attention was focused 
through the Education Commission of the States Indian education Project 
in 1980 and President Clinton's executive order which specifically 
required the development of ideas that would improve inter-governmental 
cooperation in Indian education.
    We have tried everything within the current intergovernmental 
framework and we have particularly since 1972 grown significantly in 
our knowledge of Indian education and what works, but we have not 
impacted the performance of schools. We could say that we have outgrown 
the intergovernmental ``suit of pants'' we have worn and need something 
larger and brand new.
    We have as it were, out grown the current intergovernmental 
framework of federal, state and tribal government relationships. Tribal 
government needs a greater role which expands from limited school 
operations to include a role in determining the education conditions 
and context for the education of American Indian students in all school 
types within a tribal jurisdiction.
    In nearly every area of intergovernmental relationships between 
state and tribal governments there has developed some form of 
negotiated contract or agreement except in the area of education. These 
intergovernmental relationships range from compacts for gaming, the 
collection and distribution of sales taxes, hunting and fishing rights 
and enforcement, including cross deputation of sheriff's deputies, 
police and game wardens but hasn't so far included education.
    Tribal government consultations exist with federal agencies 
particularly the Interior and Education, but tribal governments within 
their tribal jurisdictions, currently do not have a framework for 
negotiating the specific conditions and contexts for the education of 
American Indian students in BIE schools or state schools consistent 
with the requirements for state and local education plans and 
comprehensive education plans required in NCLB.
    Within the jurisdiction of tribal governments it makes sense that 
the political legal ``center stage'' needs to be tribal government and 
authority in education where the context and conditions for the 
education of American Indians could be negotiated with state 
governments and the BIE under a federal framework as discussed. Other 
tribal governments collectively could develop similar plans and 
agreements with states for what essentially represents the federal 
interest in the education of American Indians where the state 
government and its education authority would provide the political 
legal ``center stage'' such as in urban areas. In each situation I 
believe it is important to maintain Indian parent involvement and 
input.
    The requirements for the development of state education and local 
education plans in Title I, the development of comprehensive education 
plans should be a major aspect of the negotiation of tribal governments 
with state governments as well as the BIE under a federal framework for 
this purpose.
    Moving in this direction further allows for the development of 
congruent tribal education ordinances and programs in a number of areas 
that affect the well being Indian children, their families and 
communities.
3. Improve the Well Being of Indian Children and Youth
    Improving the education of American Indians students requires more 
than just a consideration of what we can do to positively impact 
education programs. It requires that we consider the whole range of 
needs of Indian children and youth that impact on their well being and 
focus on these holistically at a local level.
    As President of NIEA, I initiated the Native American Children's 
agenda to focus interest and concern of the well being of Indian 
children and youth as well as its relationship to education performance 
and progress. I thought then that a significant aspect of this agenda 
needed to be locally conceived and coordinated and that schools simply 
because Indian young people and their families were present for 
significant periods of time could be instrumental as places to 
coordinate services and to build the community of the school away from 
the school building through providing coordinated services among 
members of the community of school.
    Issues which impact the well being of Indian children and youth 
have a direct impact upon their ability to participate and respond 
educationally within schools. Educational issues and issues of 
wellbeing are linked and require a coordinated response of tribal 
government as suggested with all school systems within a tribal 
jurisdiction.
    The need is to recognize schools as more than places of schooling 
but as places of community. Efforts generally allowable in NCLB 
competitively such as Promise Neighborhoods, 21st Century Learning 
Centers, and Successful, Safe and Healthy Students efforts need to 
become models for school development utilizing coordinated tribal 
education involvement along with coordinated human service delivery 
efforts focused on state and school communities. Because exiting 
programs are competitive with very little opportunity for Indian 
reservation communities to participate to the extent needed providing 
tribal governments with planning and coordination funds through any 
number of possible authorities including ESEA grants to bring together 
available community services as provided by existing state, federal and 
tribal agencies and focused in school communities similar to the 
purposes of these other programs may have significant promise.
    Schools, the one place today where children and their families are 
most represented can be more than a place just for education but also a 
community and community building and developing place. As the community 
is involved so the community develops and grows and the well being of 
children is enhanced.
4. Incorporate Federal Native Language Policy Into NCLB
    There is policy incongruence between federal Native language policy 
and the implementation of NCLB. The federal policy focused on 
revitalizing and maintaining Native languages needs to find a viable 
functional reference within NCLB so that federal education policy 
enables rather than stunts existing school based efforts such as 
immersion schools and programs, language nests and other such efforts 
in state and BIE schools. The Native American languages such as the 
Native American Languages Act and the Ester Martinez Native Language 
Preservation Act with the NCLB should be referenced in alignment with 
Title I, Title III, and Title VII so that federal language efforts 
supported by the Federal Government in State and BIE schools are 
supported with education requirements appropriate to their purpose.
Summary
    We need a new Indian Education Act within ESEA, one which brings 
the purposes of the existing Indian education act fully to the 
forefront of the purposes of ESEA now NCLB, an Indian education act 
which recognizes tribal government authority in the context of the 
federal trustee relationship for the education of American Indians. We 
need a system of education which makes sense to American Indian people 
and Indian students who all desire to be actively engage in creating 
their own future while maintaining a continuity of their unique 
language cultural and historical experience.
    All school systems that provide education need to be focused on a 
vision that places Indian children and youth at the center of it 
attention. American Indian students need to see a personal future that 
connects to the education mission of the schools they attend. It is 
vital to their improved achievement, continued education and to a 
future their uniquely their own.

    The Chairman. Dr. Beaulieu, thank you very much. We 
appreciate your testimony and your service and previous 
experience as the Director of Indian Education.
    We have Ms. Mariah Bowers from Klamath, California, the 
Yurok Tribe. She has actually been on Skype, but is now off of 
Skype. She has been able to see this hearing, and if we are 
able here to have her back. I think the audience perhaps cannot 
see.
    Could you turn it so the audience can see it as well? You 
can turn it a little more. That is right, so that the audience 
might see who we are talking about.
    Mariah Bowers is an Indian youth from Klamath California. 
Mariah, you have been listening to the testimony here. You are 
joining us via Skype technology. Why don't you proceed? You 
have prepared some thoughts, I understand, for us and I would 
like you to proceed. Thank you for being with us.

  STATEMENT OF MARIAH BOWERS, MEMBER, YUROK TRIBE; SOPHOMORE, 
                   SOUTHERN OREGON UNIVERSITY

    Ms. Bowers. Good afternoon, Chairman Dorgan and Members of 
the Committee. [Greeting in native language]. My name is Mariah 
Bowers and I am Yurok. I am 18 years old and a college 
sophomore at Southern Oregon University. Thank you for inviting 
me to testify about my experience as a Native American student 
in the No Child Left Behind Act era.
    Between kindergarten and my freshman year of high school, I 
attended public schools in Oregon where I never did very well 
in school. However, that changed with my chance at the Klamath 
River Early College of the Redwoods School. This school is 
located on the Yurok Reservation in Northern California. At 
KRECR, I thrived and I am now a successful college sophomore 
because of the education I received there.
    During my freshman year of high school, I started having 
problems in school. At that time, I was with my family in 
Eugene, Oregon where I attended Churchill High School. My class 
schedule was divided into blue and white days. On blue days, I 
had math, reading, humanities and science, and on white days I 
had art, P.E. and a free period. I had perfect attendance and 
always did my homework.
    As the year progressed, I began to not understand the 
material in the harder classes. I would ask questions during 
class. I spent time studying, but I still struggled with the 
material. Also, I felt isolated like I was the only student who 
didn't understand the material. My teachers weren't very 
helpful. They didn't have time to meet with me. They barely 
knew who I was. They didn't seem to care about me and they 
seemed more concerned about teaching to the test and getting 
through the curriculum.
    By the end of mid-terms, I was on the verge of flunking out 
of school, even though I did my homework and had perfect 
attendance. I got bad grades. I realized that now part of the 
problem was I didn't understand what was going to be on the 
tests.
    Soon, I stopped going to school on the hard days because I 
was too nervous and anxious and I felt lost. I started getting 
into trouble and hanging out with other kids who weren't going 
to school. My mom got really concerned and enrolled me into 
Klamath River Early College of the Redwoods on the Yurok 
Reservation.
    I loved going to school at Klamath River Early College. The 
school is attended by Yuroks, non-Natives and Native American 
students from other tribes. It teaches grades nine through 12 
and has a partnership with the College of the Redwoods to 
enable students to graduate with A.A. degrees. It uses Yurok 
language and culture to teach all subjects. The class size 
ranges from 12 to 20 students.
    The biggest difference between the public school and KRECR 
was how I was tested and how I was taught. At KRECR, test 
standards were described in a book that was given to each 
student. In order to advance, the student could obtain 
proficient, emerging or advanced grades. The book laid out what 
students had to do to get good grades. This worked well for me 
because I knew exactly what I had to do to get an advanced 
grade and it made me more accountable.
    The teachers were available and I felt that they cared 
about me. The curriculum used to meet the academic standards 
required the same amount of work as I had done in the public 
schools and it was just as academically challenging. We learned 
math, science, history and reading in a way that related to my 
life. For example, we learned the history of Yurok people and 
about the ecosystems of the Yurok Reservation that supported 
traditional foods I had grown up eating, such as salmon and 
acorns.
    The school offered Yurok language classes which is how I 
learned to introduce myself in Yurok. We learned Yurok songs 
and made flash cards to learn the vocabulary. Yurok culture is 
taught in each class, but specifically every Wednesday 
afternoon we did a cultural activity.
    On my first cultural day, we started the process of making 
Indian baskets. The tribal Fisheries Department took us up the 
Klamath River to pick the roots and plants required to make the 
baskets. The next week, an elder came into the school to teach 
the girls how to make the Indian baskets. I was glad I paid 
attention to geometry in class because we used the math skills 
to make the baskets.
    At KRECR, in every classroom an elder from the community 
would sit in the class. They did not teach, but they were just 
there to sit in. The elders helped the students behave because 
no one wanted to get in trouble in front of the elders.
    Also, the school uses the process of settling up to resolve 
disputes between students, teachers and administrators. 
Settling up requires that people who are in an argument meet 
with a neutral third party and the person in the wrong has to 
pay the injured party. Usually in the public schools, students 
are suspended if they get into a fight with a student or a 
teacher. Settling up allows kids to stay in school and hold 
them accountable for their actions.
    At KRECR, we also met our tribal leaders. The Yurok Tribal 
Council helped us find internships with the tribe and local 
businesses. We used the tribal facilities and computers. It was 
good for us to have a relationship with our political leaders 
because they are our role models.
    At KRECR, I understood while school and education is so 
important. Through all of these activities, I learned standards 
for life, not just math or science or how to take standardized 
tests. I learned how to be a Yurok. I learned how to be a good 
friend, student and professional.
    Learning about my culture gave me and the other students 
something to believe in and something to do. The reservation is 
rural and most kids are poor, so there aren't many activities 
and a lot of the kids turned to drugs and alcohol. This school 
taught us about our people and to be proud of our heritage and 
culture.
    I did very well at KRECR. My grades went up and I learned a 
lot about who I am, my community and traditional academics. I 
graduated from KRECR in June of 2009 with one year of college 
credits finished. I got a scholarship to Southern Oregon 
University where I am currently a sophomore. I was lucky to 
have a family that cared about me and I had access to a school 
that had the tools I needed to succeed. All children deserve to 
have a good education experience like I had.
    For Native American students, a good education means they 
grow up understanding who they are, where they are from, and 
how to be successful in life.
    Thank you.
    [The prepared statement of Ms. Bowers follows:]

 Prepared Statement of Mariah Bowers, Member, Yurok Tribe; Sophomore, 
                       Southern Oregon University
Introduction
    Good afternoon Chairman Dorgan and members of the committee. My 
name is Mariah Bowers. I am 19 years old and a college sophomore at 
Southern Oregon University. I am an Alaska Native and was adopted into 
a Yurok family when I was a baby. Thank you for inviting me to testify 
about my experience as a Native American student in the era of the No 
Child Left Behind Act.
    Between kindergarten and my freshman year of high school I attended 
public schools in Oregon, where I never did well in school. However, 
that changed when I transferred to the Klamath River Early College of 
the Redwoods Charter School (KRECRC), a culture based charter school 
operated by the Yurok tribe and community, located on the Yurok 
Reservation in Northern California. At KRECRC I thrived, and I am now a 
successful college sophomore ultimately because of the education I 
received there. Today I will discuss my experiences in public and 
charter schools. I will also make recommendations about how we can 
improve the educational process of Native American students.
A. Public School
    During my freshman year of high school I started having problems in 
school. At that time, I lived with my family in a rural area outside of 
Eugene, Oregon where I attended Churchill High School. Every morning I 
had to catch the school bus at 7 a.m. to be on time for 8 a.m. classes. 
My class schedule was divided into blue and white days; on blue days I 
had math, reading, humanities, and science, and on white days I had 
art, PE, and a free period. I had perfect attendance and always did my 
homework for all my classes. But as the year progressed, I began to not 
understand the material in the hard classes, like math, and science. I 
would ask questions during class, I spent time studying, but I still 
struggled with the material. Also, I felt isolated, like I was the only 
student who didn't understand the material. My teachers weren't very 
helpful. They refused to meet with me and barely knew who I was. I 
asked them about my grades but they didn't know what I had in the 
class. They didn't seem interested in my success as a student.
    By the end of mid-terms I was on the verge of flunking out of 
school. I did not perform well on my mid terms exams. Again, I tried to 
arrange meetings with my teachers to figure out why I was struggling, 
but they didn't have time and wouldn't meet with me. Instead, they told 
me to do extra credit to pass their classes. I did the extra credit, 
which improved my grades to Cs, but I still didn't understand the 
material.
    Reflecting back I realize that part of the problem was I didn't 
understand what was going to be on the tests. Even though I did the 
homework and went to class, I didn't know what I was expected to learn 
or what I was going to be tested on. Nobody told me! It was never clear 
to me what I was expected to know. I grew more and more frustrated 
because even though I went to class and did the work--I still didn't 
perform well on the tests. I became more anxious and nervous about my 
classes and going to school. The teachers seemed more concerned about 
``teaching to the tests'' and getting through all of the curriculum 
that would be on the test as opposed to actually teaching the students 
and making sure the students understood the material.
    By the middle of my freshman year, I understood less and less of 
the material and my grades began to suffer even more. I stopped going 
to school on the hard days because I was too nervous and anxious and I 
felt isolated. With extra time on my hands, I started getting into 
trouble and hanging out with other kids who weren't going to school. My 
mom got very concerned and pulled me out of school. Since most of our 
family lives on the Yurok Reservation in Northern California they 
suggested I try going to the Klamath River Early College of the 
Redwoods Charter School (KRECRC) located on the Yurok Reservation that 
focuses on Yurok culture and language as the foundation to learn other 
subjects. My family suggested I just try it on a temporary basis to see 
if I liked it better then public school. So I temporarily moved to the 
Yurok Reservation to attend the school.
B. Charter School
    I loved going to school at KRECRC and I ended up graduating from 
the school three years later. The school is attended by Yuroks, non-
natives, and Native Americans from other tribes. It has grades 9 
through 12 and has a partnership with the Early College of the Redwoods 
to enable students to graduate with AA degrees. It uses Yurok language 
and culture as the foundation to teach all subjects. The class sizes 
range from 12 to 20 students. I did well at this school, finally! 
Honestly, if it wasn't for this school, the teachers, staff, elders, 
and students, I wouldn't be in College today.
1. Standards, Teachers, and Elders
    The biggest differences between the public school and KRECRC were 
how I was tested and how I was taught. First, the testing standards 
were completely different. At KRECRC test standards were described in a 
book that was given to each student. Students could obtain 
``proficient,'' ``emerging'' or ``advance'' as grades. The book laid 
out what type of student product was required for each grade. This 
worked well for me because I knew exactly what I had to do to get an 
advanced grade. I understood what was expected of me and I never had to 
guess like I did in the public school. The teachers gave me materials 
to master, the testing standards were clear, and I knew what I needed 
to do to get good grades. This made me more accountable--I knew what I 
had to do to get a good grade. In the public school, I didn't know what 
was expected and I didn't know what was going to be tested, so it was 
hard for me to get good grades. But at KRECRC, I knew exactly what to 
expect and how to perform well on tests.
    The curriculum used to meet the academic standards required the 
same amount of work as I had done in the public school and it was just 
as academically challenging; only now I knew what was expected of me. 
The curriculum was also interesting because we learned math, science, 
history, and reading in a way that related to my life. For example, we 
learned the history of the Yurok people and we learned about the 
ecosystems on the Yurok Reservation and how they supported traditional 
foods that I had grown up eating, such as salmon and acorns.
    The teachers also worked with me to determine how I was going to 
meet the academic standards. This worked well because I knew what I 
needed to do to get good grades. The teachers were very involved in my 
classes and were very accessible. They always knew what my grades were 
and how I was progressing. They also knew the areas where I was 
struggling and offered extra instruction. They were kind and 
understanding. They knew who I was and were willing to work with me. 
This helped me feel less nervous about the hard subjects. It helped me 
feel like I could learn.
    Also at KRECRC, in every classroom an elder from the community 
would sit in the class. The elders were community members or sometimes 
students' family members. They didn't teach but were there to ``sit 
in.'' The elders helped the students behave because no one wanted to 
get in trouble in front of the elders. Most of the students understood 
that the elders came in from town to spend time with the students and 
they were community leaders--both demanded respect so the kids paid 
attention to the teachers and were polite. The presence of elders 
controlled behavior--even when the elders feel asleep in class, proving 
that geometry is boring at any age!
2. Culture
    Yurok language and culture was part of every day at KRECRC. We went 
to school to become contributing members of the Yurok community. 
Learning our culture became an incentive for me and other students to 
come to school.
    The school offers Yurok language classes which is how I learned how 
to introduce myself in Yurok. We learned Yurok songs and made flash 
cards to learn vocabulary. Yurok culture is taught in each class, but 
specifically, every Wednesday afternoon we did a cultural activity. 
Students looked forward to this throughout the entire week. For the 
culture activity, boys and girls are separated into groups and 
community leaders and elders taught each group.
    On my first culture day, we started the process of making Indian 
baskets. The Tribal Fisheries Department took us up the Klamath River 
to pick the roots and plants required to make baskets. We spent the day 
picking the roots and plants and preparing them to make baskets. The 
next week a community leader came to the school to teach us girls how 
to make an Indian basket.
    Meanwhile the boys were learning how to make eel hooks to catch 
eels, a very popular traditional food, and later they went ``eeling.'' 
After the boys caught the eels, the elders taught us girls how to 
prepare them and we cooked the eels for the school lunch. The following 
month the boys learned how to make a canoe. Everyone loves these 
activities because we learn how to be Yuroks.
    Also, the school uses the Yurok process of ``settling up'' to 
resolve disputes between students, teachers, and administrators. 
``Settling up'' requires the people who are in the argument to meet 
with a neutral third party, discuss and determine who is in the wrong, 
and that person has to pay the injured party. After the payment is 
made, the parties can't hold grudges or speak of the event again. The 
school uses this process to resolve all disputes that may arise, from 
student-to-student bad mouthing to student-to-teacher behavioral 
problems. The process has been very effective in managing student 
behavior. The students respect this process because the community has 
used it for several generations.
    Usually, in the public school that serves the Yurok Reservation, 
students are suspended if they get in a fight with a student or 
teacher. If you get suspended, you have free time, and in most cases, 
kids will start drinking or doing drugs and a lot of times you get in 
trouble with the law before you make it back to school. The public 
school offers no guidance about how a student should behave. Instead 
they just push you through the system. As a result, kids feel 
unattached to the school and they don't learn there.
    In contrast, the settling up process allows kids to stay in school 
and it makes them accountable for their actions--they have to pay if 
they harmed someone and they have to talk with that person about why 
they did something harmful. It also provides guidance about how a 
person should behave.
3. Tribal Control
    At KRECRC we also met our tribal leaders. The Yurok Tribal Council 
helped find internships with the Tribe and local businesses. They 
helped us develop resumes and served as references for jobs. We were 
able to use the Tribe's facilitates and technology for school 
activities. The Tribal newspaper frequently reported about the school's 
activities and accomplishments. It was good for us to have a 
relationship with our political leaders because they are our role 
models; it gave us something to work toward.
    After a few weeks of school at KRECRC I understood why school is so 
important; through all of these activities I learned standards for 
life--not just math or science class or standardized tests as was my 
experience in public school--I learned how to be a Yurok. I learned how 
to be a good friend, student, and professional. Learning about my 
culture gave me, and the other students, something to believe in and 
something to do. There are a lot of drugs and alcohol on the Yurok 
Reservation. The Reservation is rural and most kids live in poverty so 
there aren't many activities available. Sometimes kids turn to drugs 
and alcohol because they have nothing better to do. But we are proud of 
our culture and traditions and we want to learn more about it. The 
school taught us who we are and to be proud of our heritage and 
culture. We identify with our culture. Teaching culture in the school 
and involving the community gave us a reason to go to school; to learn 
how to be Yurok.
    I did very well at KRECRC. My grades went up and I learned a lot 
about who I am, my community and traditional academics. I graduated 
from KRECRC in June of 2009. I got a diversity scholarship to Southern 
Oregon University, where I am currently a sophomore.
C. Recommendations
    I was lucky. I have a family that cares about me and I had access 
to a school that had the tools I needed to succeed. All children 
deserve to have a good educational experience like I had. For Native 
American students a good education means they grow up understanding who 
they are, where they are from, and how to be successful in college and 
as professionals.
    Based on my experiences I recommend the Committee do four things in 
the reauthorization of the Elementary and Secondary Education Act to 
improve Native American education:

  <bullet> First, give students a clear understanding of academic 
        standards. If we are moving toward national standards, make 
        those standards clear to students and provide the students with 
        tools to meet those standards.

  <bullet> Second, increase the role of tribal governments and 
        communities in education, in all schools serving tribal 
        students. We respect our tribal leaders and elders. We want to 
        learn from them. Put them in our classrooms. Plus, the tribal 
        government has resources that will help us succeed. The schools 
        need help; they can't provide us with all the resources we need 
        and the tribal governments working with tribal education 
        departments/agencies can help.

  <bullet> Third, incorporate language and culture into curriculum, 
        standards, and assessments. In order to be ready for college or 
        careers we have to understand where we come from and our 
        culture. We get excited to learn about our culture. Our 
        excitement motivates us to learn other subjects and it gives us 
        a reason to come to school.

  <bullet> Fourth, make curriculum, standards, and tests flexible 
        enough to provide a well rounded education that prepares Native 
        American students to be tribal leaders, professionals, mothers, 
        fathers, and community members.

Conclusion
    Thank you for allowing me to testify on these very important 
issues. I hope that my comments today will help the committee create a 
better educational experience for all Native American students.

    The Chairman. Mariah, thank you very much. We are inspired 
by your story, and congratulations to you for finishing your 
first year and being enrolled and having hope for the future, 
and investing in yourself. We really appreciate that.
    Actually, your testimony was better than the technology 
because your image was wavering in and out, but we could hear 
your voice just fine. So thank you very much. Stay with us, if 
you will, just for a few moments.
    Let me ask a couple of questions and then I will call on my 
colleague Senator Udall as well.
    Let me ask Mr. Smith, if I might, you stressed the language 
immersion program. Tell us again what noticeable difference 
have you seen in the academic performance of students that 
participated in the immersion program for language?
    Mr. Smith. We have had the immersion class, one class each 
year, so we started out with pre-K, next year first, second, 
third. We are up to the fourth grade. What we find is that kids 
not only speak Cherokee and think Cherokee and act Cherokee, 
but their composure, their collection, their ability to 
communicate with other folks in English and other languages is 
tremendously improved. They just have a confidence that you can 
tell that they have a sense of solid identity.
    The Chairman. Is there evidence in their grades and I 
should say, all portions of their academic experience?
    Mr. Smith. We are at that juncture now where we are 
learning English literacy. So the testing mechanisms are not 
fully perfected.
    The Chairman. All right.
    Ms. Oatman-Wak Wak, you talked about recommending Congress 
support and fund programs that ensure maximum participation of 
parents and families and so on, community members, in 
education. I think that there is nothing more important than 
having parents involved in education. I have always felt that 
the three things that are essential for education to work well 
are, number one, a teacher that knows how to teach; a child 
that wants to learn; and a parent involved in that child's 
education. If those three things are present, almost inevitably 
it works.
    But I think what we find so often, and it is not just on 
Indian reservations or with Indian education, it is across the 
Country, we find so often that a couple of those things are 
present, but not the parent involvement. And the lack of parent 
involvement is just devastating.
    So when you talk about these things, I agree with you. What 
kind of incentives do you think Congress can develop with 
respect to parent involvement?
    Ms. Oatman-Wak Wak. I appreciate that question, Chairman 
Dorgan. We do know that parental involvement, not just in 
native communities, but all communities, is an issue. However, 
within Indian Country, it is a lot of those traumatic 
experiences and those past Federal policies that kind of worked 
to decreasing of valuing education throughout Indian Country.
    We are seeing that change. It is changing. We are on the 
impetus of that change where educational attainment is becoming 
a high priority within Indian Country. We still have a ways to 
go. We still actually have a long ways to go to get that Indian 
parent involvement.
    We do have some of those parameters like within the Federal 
Impact Aid Program which requires Indian policies and 
procedures for school districts on-reservation that are 
receiving the impact aid dollars due to a large presence of 
those Federal lands.
    However, many times we experience that it is just a 
process. It is let's develop an Indian parent committee so that 
they can sign up on these Indian policies and procedures. We 
need stronger correlation and strengthening the language within 
those different titles.
    So for Title VIII for impact aid, instead of stating that 
local education authorities should or may, we need to 
strengthen that language, shall and must collaborate with 
Indian tribes. And through that language, we will also 
strengthen the role of Indian parent committees under impact 
aid or the parent committees under Title VII that are required 
under those different titles.
    It is the soft language that is killing us, quite honestly, 
in that the local education authorities know that they are not 
required to do so. It is just more of a suggestion.
    The Chairman. Thank you.
    Mariah, I am going to ask you a question before your image 
disappears on us again. Let me ask your self-assessment. Go 
back four years. You described your sense of what was going on 
in your life about four years ago, flunking out, not doing 
well. Your self-assessment of you four years ago versus now and 
what made the difference, do you think?
    Ms. Bowers. Like with my education?
    The Chairman. Yes, okay, I mean, you described a period 
where you felt like you couldn't do the work. You weren't 
motivated. You didn't care very much because things weren't 
working in your life. You kind of described to me a period 
where you kind of felt hopeless. All of a sudden, you come here 
to us and say, you know what? I am feeling really good about 
things. I have just gotten through my first year of college. I 
am in a place that I care about.
    So, is that a pretty good assessment of what has happened 
to you? And what was it that triggered it, do you think?
    Ms. Bowers. I think because I was living off of the 
reservation while I was going to school in Eugene, Oregon, and 
I was kind of discouraged because I kind of had a feeling of I 
didn't really know who I was or where I came from. And when 
people would ask me, they would always mistake me for being 
Asian or Mexican. Not a lot of people know that Native American 
people were still living and doing things.
    I kind of felt like I was falling into this statistic of 
the students who aren't going to graduate and who fail out of 
school and this and that. And I kind of became discouraged, not 
only with school, but just knowing that I wasn't going anywhere 
with my life.
    And moving back home with having my cousins going to school 
with me and friends from when I lived on the reservation, with 
people who looked just like me and are doing the same things, 
it motivated me because I wasn't an outsider and I wasn't a 
nobody. I was actually just one of every other one of the 
students who was at the school. And then I became more 
motivated and I became more motivated to be more of the 
statistics of those kids who graduate and the kids who go to 
college, and the kids who don't fall into the drugs and 
alcohol. I wanted to be the better statistic than the not as 
good statistic.
    The Chairman. And Mariah, what do you want to be?
    Ms. Bowers. I think I am going to major in criminal justice 
and I want to be maybe like a probation officer for youth, or 
something. I am not really sure. I am still working it out.
    The Chairman. But there is no doubt in your mind you can be 
what you want to be. Is that correct?
    Ms. Bowers. Yes. I can be whatever I want to be as long as 
I try and work hard, do the homework, go to class.
    The Chairman. Good for you. The only limits on you and your 
life are the limits you put on yourself. And there are a lot of 
barriers, but I am talking about limits now. You can get over 
the barriers, but your life is going to be in many ways a set 
of opportunities that are defined by the limits you describe 
for yourself.
    And really, there aren't many limits if you put your mind 
to it. You have just discovered that, changing environment, all 
of a sudden deciding I am not failing, I am succeeding. Big 
difference.
    Ms. Bowers. Yes.
    The Chairman. You are good to be with us. I thank you very 
much for being willing to spend a little time with us.
    Let me call on Senator Udall for his comments.
    Senator Udall. Thank you, Chairman Dorgan.
    Mariah, just to follow up on what Senator Dorgan asked 
about, you were saying what allowed you to do better was being 
surrounded by other native students. And it seems like that 
gave you an inspiration. Were there teachers? Were there other 
things that inspired you to learn?
    Ms. Bowers. Yes, there were teachers.
    Senator Udall. Was there a favorite teacher or somebody 
there that took you under their wing and really tried to give 
you advice and lead you down the right path?
    Ms. Bowers. I wouldn't say a favorite teacher, but having 
the elders come into the school and sit there was really 
motivating. One of the elders who came most of the days was 
actually my great uncle. And so it actually really excited me 
because he was there and he was always telling me to behave and 
to not always look at the boys and to just focus on school.
    [Laughter.]
    Ms. Bowers. So having him sit there and be behind me, it 
kind of made him seem like he was always standing behind me, 
supporting me. And he was there probably three times all of the 
week. So I think that was really good.
    And we also had people come over from the tribe who would 
just come in and just make sure that we were on task, big 
people like Tribal Council people or the tribal Chairperson or 
something. So knowing that they would come in and give us the 
support that we needed, it made me feel really good because 
they were really important people for the tribe, for them to 
come over and to say that we were doing a good job and just to 
keep it up and stay motivated. That is what really helped me.
    And the teachers, I don't really have a favorite teacher. 
They were all really supportive and helpful. I don't have a 
least favorite teacher, so they were there for me.
    Senator Udall. Thank you very much for your testimony. I 
think you have given us a good example of the kinds of things 
that can help native students to achieve and to really move 
forward.
    I agree with Chairman Dorgan that if you really put your 
mind to it, you are going to get everything done that you want 
to do in your dreams. So thank you for being with us today.
    Ms. Bowers. Thank you.
    Senator Udall. You bet.
    A question to the panel. You watched the previous panel and 
the individuals talking about how they were going to turn 
around the schools. Do you have any thoughts on their 
testimony? Do you disagree with anything? Do you think their 
approach is a solid one? Is there anything that stands out from 
that testimony you would like to comment on?
    Dr. Beaulieu. Senator, there is one thing that comes to 
mind at the moment. One is that longevity is important. I was 
involved during the 1990s in the school evaluation monitoring 
teams with the Bureau of Indian Affairs in those days where we 
visited schools.
    The single most important factor for improving test scores 
was the longevity of a principal, a school leader who had a 
vision and a plan for the education of that school community. 
It matters that there are people that are hanging in there 
working on plans and so forth, and we need to sustain that 
leadership, not constantly move them from place to place and 
changing an already bad situation. People come and go fast 
enough already.
    I think that sort of speaks to also the need for broader 
vision within the local community for what is education, and to 
engage parents, tribal governments and others in what is that 
vision and how do we all work together on it.
    Senator Udall. Thank you.
    Mary Jane?
    Ms. Oatman-Wak Wak. It was mentioned earlier about the need 
for highly effective teachers, highly effective leaders. There 
is no doubt about that. But one of the other scenarios and one 
of the other caveats that has not been brought up in this forum 
today or during the hearing is I guess the lack of sustainable 
school board models within Indian Country, through our bureau 
schools as well as through our public schools, is the role and 
the lack of assistance or support for school boards.
    They are the governing bodies over these schools, and yet 
there is a disconnect between their role and the lack of 
student achievement within those schools. It is always the 
fingerpointing on the principal, or in the case here, that we 
have seen throughout Indian Country. And I have heard it 
throughout my work as the Coordinator of Indian Education at 
the State. Is it is the Indian kids, or it is the ineffective 
teacher, or it is the principal?
    And so I think that we need to also really look at and 
assess the role that school boards have not only with their 
fiduciary responsibilities over schools, but the role that they 
can play in student achievement and governance of the schools, 
because they are the ones that are working to help retain the 
superintendents, that are assisting in getting the teacher 
contracts, as well as the principal contracts.
    And so for a more holistic approach, we need to also look 
at addressing the governance of the schools through school 
boards.
    Senator Udall. Thank you. Thank you very much.
    Chief Smith, if you have a brief comment? I have run out of 
time.
    Thank you very much.
    Thank you, Chairman Dorgan. Thank you for the hearing.
    The Chairman. Senator Udall, thank you very much.
    This is the first hearing and the opening hearing to lead 
us to work on this education issue in a more focused way. As 
you know, we have worked on Indian healthcare improvement in 
this Congress and have that now signed into law. We are very, 
very close to getting done, hopefully in a matter of days in 
the Senate, the Tribal Law Enforcement Act that we have 
introduced. Senator Udall and I and others have worked very 
hard on that. We are very close. That is going to get done, I 
believe. So those are two big issues.
    And now we turn to education and begin the work on trying 
to determine how to address specific Indian education needs 
within the context of other authorization bills that are going 
to be passed, including No Child Left Behind and its 
modifications.
    So let me thank the three of you for being willing to be 
with us today and to provide testimony. We are going to keep 
this hearing record open for two weeks, and we would invite 
anyone from not only the National Indian Education Association 
that wishes to provide supplemental information, but anyone 
else who wishes to submit formal comments for our record. We 
will accept them for two weeks from today's date.
    I thank all of you very much.
    This hearing is adjourned.
    [Whereupon, at 4:02 p.m., the Committee was adjourned.]
                            A P P E N D I X

     Prepared Statement of the Montana Office of Public Instruction
Title III--Native American Languages and Students Identified As Limited 
        English Proficient
    The current NCLB reorganization of bilingual education to English 
language acquisition has a confining and restrictive effect on Native 
American Languages in schools. That is not the Title III population we 
serve in Montana. The majority of Title III students served in Montana 
are American Indian, which do not fit well with current definitions, 
processes, procedures, and methods by the Office of English Language 
Acquisition that administers the Title III programs. Their current 
focus is new immigrant language issues.
    Our children served through Title III are subjected to assessments 
designed to determine progress for English learners moving from no 
English to English literate.
    Recommend:

  <bullet> Native American Language programming be moved from Title III 
        to Title VII with appropriate funding to implement native 
        language revitalization efforts in schools.

  <bullet> The Native American Language Act and the Esther Martinez 
        Native American Languages Preservation Act of 2006 should be 
        reflected in NCLB assessment, programming, and policy.

Title VIII--Impact Aid and Turnaround Process
    The 8003 Indian Lands component of Impact Aid requires tribal 
review of eligible ``federally impacted students''. Impact Aid creates 
a connection between Tribal Education Departments (TEDs) and schools 
where the counts are verified, parent s submit demographic information 
and land descriptions, and parent committees approve (informally or 
formally), the Indian Policies and Procedures to schools. This section 
ought to formalize a role to address tribal community participation, 
but it seldom does. Tribal government and school boards would benefit 
from increased communication.
    Impact Aid dollars are a significant contribution to a school, but 
without tribal or SEA monitoring roles, they rarely receive scrutiny as 
they are absorbed into a school's general fund. Some of the schools who 
struggle the most with academic achievement the greatest receive such 
funding.
    Recommend: Impact Aid consultation be a formal process with annual 
tribal signature.
                                 ______
                                 
Prepared Statement of Gloria O'Neill, President/CEO, Cook Inlet Tribal 
                             Council (CITC)
    Chairman Dorgan, Vice Chairman Barrasso, and Members of the 
Committee, I am grateful for the opportunity to present this testimony 
to you.
    My name is Gloria O'Neill and I am the President and CEO of Cook 
Inlet Tribal Council (CITC), an Alaska Native tribal organization which 
serves as the primary education and workforce development center for 
Native people in Anchorage. As I have explained before to the 
Committee, CITC has been designated its tribal authority through Cook 
Inlet Region Inc., organized through the Alaska Native Claims 
Settlement Act and recognized under Section 4(b) of the Indian Self-
Determination and Education Assistance Act. CITC builds human capacity 
by partnering with individual Alaska Native people to establish and 
achieve both educational and employment goals that result in lasting, 
positive change for our people, their families, and their communities.
    I will address these comments specifically to the effect of No 
Child Left Behind and our recommendations for the reauthorization of 
the Elementary and Secondary Education Act, incorporating by reference 
my comments to this Committee on March 31, 2010 (attached hereto).
    Over the past decade, as CITC has implemented innovative programs 
in partnership with the Anchorage School District, Alaska Native 
student performance has lagged behind other students' performance, in a 
state with one of the lowest performance rates overall. The Alaska 
experience tracks with American Indian experience elsewhere in the 
United States, with the added issue that all Alaska Native students 
receive their education only from the state and local school districts.
Recommendations
    1. As explained below, CITC recommends that the ESEA maintains and 
expands the flexibility and creativity for bold innovative partnerships 
between tribal and state organizations to leverage federal funding 
offered through the Alaska Native Equity Program (ANEP), the main 
source of federal funds available for Alaska Native education in 
Alaska. This program allows the creativity to develop strengths-based, 
culturally appropriate flexible programs that promote the learning and 
success of Alaska Native and American Indian students through effective 
schools, comprehensive services and family supports.

    2. In order to ensure that all Alaska Native and American Indian 
students are well-served under the recommendations submitted by the 
National Indian Education Association and other experts, the 
reauthorization should use the Indian Self-Determination and Education 
Assistance Act definition of tribe (25 USC 450b: Indian tribe `` means 
any Indian tribe, band, nation, or other organized group or community, 
including any Alaska Native village or regional or village corporation 
as defined in or established pursuant to the Alaska Native Claims 
Settlement Act (85 Stat. 688) [43 U.S.C. 1601 et seq.], which is 
recognized as eligible for the special programs and services provided 
by the United States to Indians because of their status as Indians.''

    3. The Blueprint suggests expanding eligibility to school districts 
and public charters under the Alaska Native and Native Hawaiian 
programs. CITC does not agree with expanding Alaska Native targeted 
funding to school districts without partnership with Alaska Native 
tribes or tribal organizations. School districts and charters already 
receive Department of Education funding.

    4. ESEA must ensure that academic intervention and case management 
for student success are high priorities for funding; other supportive 
services and cultural activities are also critical to student success 
and should be well-funded as part of a continuum of service.

    5. ESEA should remove the 5 percent cap on administrative costs and 
allow indirect recovery at the rate negotiated with the tribe or tribal 
organization's cognizant agency.

    6. ESEA should lower 50 percent match requirements, and permit use 
of non-federal public funds for match.

    Finally, CITC recommends that the Department of Education take full 
advantage of opportunities to reduce administrative burden and to 
coordinate with other agencies working with American Indian and Alaska 
Native tribes and tribal organizations offered through such statutory 
structures as P.L. 102-477. While the current efforts of the DOI and 
Department of Education to coordinate about Indian education are 
important steps, the 477 mechanism allows tribes and tribal 
organizations to combine sources of funding to best serve our people.
1. Maintain and Increase Flexibility Under the Alaska Native Education 
        Equity Act
    With the exception of limited Johnson O'Malley funding, there is no 
Bureau of Indian Education funding in Alaska. However, federal funds 
from the U.S. Department of Education support Alaska Native education 
through the Alaska Native Education Program (ANEP), also known as the 
Alaska Native Education Equity Act. These funds, alone, provide 
critical resources for creative solutions to the problems of Alaska 
Native student performance. Funds go to school districts, tribes and 
tribal organizations across the state, and to the University of Alaska, 
to assist with individual and systemic change. For example, CITC's 
education pipelines through the Partners for Success program is an 
innovative and comprehensive program dedicated to growing college and 
career-ready graduates from kindergarten through twelfth grade. As is 
clear from the research, in order for our at-risk students to succeed, 
intervention must occur early, both within and outside the classroom, 
and continue throughout the school years with both academic and other 
wrap-around services.
    Efforts to reform the existing educational system in Alaska are not 
working, and graduation rates for Alaska Native/American Indian (AN/AI) 
students are discouraging:

  <bullet> During the 2006-2007 school year, AN/AI students in 
        Anchorage had the lowest graduation rate of all No Child Left 
        Behind disaggregated subcategories at 42.72 percent.

  <bullet> In 2007-2008, AN/AI Anchorage students' graduation rates 
        dropped to 33.26 percent--a decrease of more than 22 percent.

  <bullet> In 2008-2009, their graduation rate increased again to 48 
        percent, while the overall graduation rate for the Anchorage 
        School District reached 70 percent.

  <bullet> In-migrating students become lost in schools that are often 
        larger than their entire home village.

  <bullet> Academic success is hampered by a high level of homelessness 
        and family instability among Alaska Native students, who move 
        to Anchorage from the village to stay with relatives.

    Due to Alaska's historical idiosyncrasies, for the past 25 years 
the State of Alaska has been responsible for Alaska Native education. 
Given the challenges of teaching in small, extremely remote villages 
accessible only by boat or airplane as well as in the larger 
communities, Native children have been severely neglected and the 
result has been the shocking disparities noted above. Recently, the 
State has failed to insure that each school district's curriculum Is 
aligned to state standards, as well as other limitations including 
inadequate consideration of pre-K and other intensive early learning 
initiatives, not addressing the specific strengths and weaknesses of 
each chronically underperforming district and a failure to address high 
teacher turnover and teacher inexperience.
    In short, the lack of active federal oversight, involvement and 
funding for Alaska Native education has produced dire results for 
Alaska Native children and young adults. Alaska Native students have 
indeed been left behind by NCLB.
2. Use the Indian Self-Determination and Education Assistance Act 
        Definition of ``Tribe''
    The complex array of tribes, tribal organizations and other 
entities that provide services to Alaska Native and American Indian 
people across the country are appropriately reflected in the ISDEAA, 25 
U.S.C. 450b. Because of the unique Alaska landscape, federal 
programming and funding operates via several channels: tribes at the 
village and hub level, regional non-profit tribal organizations, and 
often through state contracts with tribes or regional tribal 
organizations. As a result, tribes and tribal organizations in Alaska 
have implemented federal Indian programs for over thirty years. There 
are over 40 statutes and regulations that use this definition, and thus 
ensure that services can be provided to Alaska Native people through 
all of the vehicles available, both federally recognized tribes and 
tribal organizations such as regional non-profit organizations. For 
example, CITC supports the recommendations bring Tribal Education 
Agencies on a par with state and local education agencies, so long as 
the ISDEAA definition of tribe is applied to the provision.
3. There Is no Need to Expand ANEP to Include School Districts and 
        Charter Schools, as They Already Receive Funding From the 
        Department of Education
    The Blueprint for Education recommends expanding ANEP eligibility 
to school districts and charter schools for the few federal dollars 
that are expressly directed Alaska Native student education. As several 
others have testified, tribal involvement in reaching solutions for 
Native students is critical to the success of programs for Native 
students; therefore, CITC supports continuing to require linking the 
funds with required partnerships with tribes and tribal organizations.
4. Academic and Case Management Must Be High Priorities for Native 
        Education Funding
    Combating the disparate achievement of Native students can only be 
achieved through both focus on the academic achievement and the case 
management of attendant issues that face Native students. CITC's 
experience has shown that a different pedagogy as well as wrap around 
services are both key to improving grades and graduation rates. Most 
importantly, this intervention needs to start early and remain 
consistent throughout the K-12 years. For high school students without 
stable home lives, or who are aging out of foster care, attendant case 
management and services are essential to success. For this reason, CITC 
is taking the Partners for Success program to the next level, planning 
a stable, dormitory-style program that will coordinate with its school-
within-a-school program at the local high school.
5. ESEA Should Remove the 5 Percent Cap on Administrative/Indirect 
        Costs
    It is both unrealistic and unhealthy for administrative costs to be 
limited to 5 percent; well-run programs need adequate resources to 
maintain, improve and grow. Tribes and tribal organizations have 
negotiated indirect rates with their cognizant federal agency (usually 
BIA or IHS), and other federal agencies should honor that 
administrative rate when contracting for services.
6. ESEA Should Lower the 50 Percent Match Requirement and Allow Non-
        Federal Public Funds to Be Used as Match
    CITC understands the importance of leveraging dollars and 
encouraging private and public support for education nationally. 
However, otherwise eligible and available programs are often excluded 
by the heavy burden of the match requirement, thus limiting flexibility 
and lowering local capacity for initiating necessary innovation.
CITC Program Opportunities--Tribal/Public School Partnership
    The needs of our Native community grow every day due to the current 
economy and the persistent disparity in educational achievement. On 
behalf of Cook Inlet Tribal Council and the community we serve, I urge 
this Committee to expand funding for Indian education, and in 
particular the Alaska Native Equity Act, so that Alaska Native children 
can experience the quality of education they deserve. For example, 
continuing the ability to leverage funding on innovative demonstration 
projects, such as the CITC Partners for Success, is essential to 
sustaining success at the local, state and national level. It is of 
paramount importance that the re-write of the Elementary and Secondary 
Education Act maintain and expand the flexibility and opportunities for 
these unique tribal, state and federal partnerships that make possible 
real change and achievement for Alaska Native students, promoting 
effective schools, comprehensive services and family supports. It is 
now, at this critical juncture, as Congress sets a new course for 
American education, that we ensure that Alaska Native students--who 
have been left behind for so long--truly have the opportunity to 
succeed. We know what needs to be done, and we have proven strategies 
that require your support. We ask for the partnership and resolve of 
Congress, to work with us to close the persistent achievement gap for 
Alaska Native students, and allow our young people--our future 
generation of adults--to fulfill their unlimited potential.
                                 ______
                                 
     Prepared Statement of the Montana Indian Education Association

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of Dr. Roger Bordeaux, Superintendent, United Auburn 
 Indian Community School; Executive Director, Association of Community 
                       Tribal Schools Inc. (ACTS)
    Chairman Dorgan, Ranking Member Barrasso, and members of the Senate 
Indian Affairs Committee, my name is Dr. Roger Bordeaux; I serve as the 
Superintendent of the United Auburn Indian Community School in Auburn, 
California and the Executive Director of the Association of Community 
Tribal Schools Inc. (ACTS). I have been a Superintendent for 20 years 
and the Executive Director for 23 years.
    First I would like to thank the Chair and the Committee for this 
opportunity to submit testimony for the record. The tribal school 
movement started in 1966 with Rough Rock Demonstration School. Now 
there are over 28,000 students in tribal elementary and secondary 
schools. The schools are in the states of Maine, Florida, North 
Carolina, Mississippi, Louisiana, South Dakota, Minnesota, North 
Dakota, Michigan, Iowa, Wisconsin, Kansas, Wyoming, Oklahoma, Montana, 
California, Washington, Idaho, Nevada, Arizona, and New Mexico. ACTS 
represents a significant number of the over 124 tribally controlled 
elementary and secondary schools. The schools have over 27,000 tribal 
children enrolled in k-12 programs. ACTS's mission is to ``assist 
community tribal schools toward their mission of ensuring that when 
students complete their schools they are prepared for lifelong learning 
and that these students will strengthen and perpetuate traditional 
tribal societies.''
    However, over the last six years, the budget for the Bureau of 
Indian Education has bloated while the appropriations to school based 
programs have remained relatively stagnant. Since FY 2006, the BIE 
Education management has grown 288 percent, and no, that is not a type-
over. During that time: Tribal Grant Support Costs grew 4 percent; 
School Facility Operations, 6 percent; ISEP Formula, 11 percent; 
Student Transport, 20 percent; and from 2008 School Facility 
Maintenance, less than 1 percent. My question would be: where is the 
money that the BIE is getting going if not to the students and the 
schools?
    This mismanagement of funding illustrates the need for more local 
and tribal control that can respond to student and community needs 
rather than more bureaucracy. As part of the House Education and Labor 
Committee's request for public comments going into the reauthorization 
of No Child Left Behind, I have submitted legislative language that 
will give more control at the local level where it is needed, which I 
have passed on to your staff. Also in that language, are changes to the 
adequate yearly progress (AYP) system for Native American students to 
reflect the unique and individual needs of our children. As you are no 
doubt aware, currently under the law tribes can already create their 
own AYP, but it has been documented by the GAO that the process to do 
so is unclear and without proper guidelines. Additionally, in some 
cases the BIE has worked with states to create standards without 
receiving tribal input, and has not followed established guidelines for 
consulting with tribes. This has lead to few tribes being able to take 
advantage of the existing provisions in NCLB that allow the creation of 
their own AYP. That so few schools have the ability to take advantage 
of this creates a situation where in much of the country, Native 
students are participating in schools where their tribal governments 
have no say at all.
    Finally, starting in 1996 there was a moratorium placed on new 
schools entering the Bureau school system or from expanding an already 
existing program. This was done at the request of the Bureau so that 
they could ``clear their backlog''. Fourteen years later, that backlog 
still exists and schools are handcuffed into existing programs that 
don't reflect the reality of the current situation. The only schools 
and programs that have had a chance to enter the system or add ISEP 
funding in this time have been schools that have been politically 
favored by the BIA or BIE, rather than schools that have an educational 
need.
    I thank you again for this opportunity to submit testimony and I 
look forward to working with each of the members of the Committee to 
find a comprehensive solution to the needs that face our students. I 
can tell you with absolute certainty that no one is willing to work 
harder for our children's future than our tribal members and 
governments and we look forward to proving this through our actions. 
Our students are among the best and brightest in the country and we all 
need to make sure that they have the same opportunities to succeed that 
the rest of the country has.
    Attachments

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 ______
                                 
 Prepared Statement of Ryan Wilson, Oglala Lakota; President, National 
                   Alliance to Save Native Languages

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
          Prepared Statement of Dr. Sandra Fox, Oglala Lakota

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
Prepared Statement of the Washington State Tribal Leader's Congress on 
                               Education

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                      ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                            Charles P. Rose
    Your written testimony noted that in the course of the Department 
consultations with Indian tribes, a common theme was raised by tribes 
that there should be more collaboration between the tribes and the 
state about how Indian students are educated. The tribal testimony 
received during these consultations indicated that the best way to 
promote such collaboration would be to elevate and fund tribal 
education agencies.
    Question 1. What approaches have been used by school systems to 
promote collaboration with stakeholders on how school children should 
be educated?
    Answer. One approach to collaboration is consultation with parents 
of Indian children and Indian tribes in the development of educational 
programs. For example, as part of the Department of Education's Impact 
Aid program, local educational agencies (LEAs) are required to consult 
with parents and tribes, and in the Indian Education formula grant 
program a parent committee must approve the LEA's plan for the use of 
program funds. Additionally, a small number of LEAs have entered into 
agreements with tribes regarding increased tribal involvement in State-
operated schools located on tribally controlled lands.

    Question 2. How should state schools be incentivized to engage in 
such collaboration with Indian tribes?
    Answer. Because American Indian and Alaska Native (AI/AN) students 
have unique cultural needs, the Administration believes that States and 
tribes should work together when making decisions that affect AI/AN 
students. Tribes are often best positioned to understand the potential 
consequences of education policies and plans for AI/AN students. We 
believe that States have an incentive to collaborate with tribes 
because tribes can support States in such areas as training teachers, 
implementing specific educational programs, and collecting and 
reporting data.

    You also noted that these consultations identified additional 
educational challenges Indian children face due to violence, drug 
abuse, and high unemployment rates in their community.
    Question 3. How can the reauthorization of the Elementary and 
Secondary Education Act accommodate these additional challenges so that 
Indian children can achieve academic success?
    Answer. Addressing the full continuum of student and community 
needs is critical to helping Indian children overcome these significant 
challenges, allowing them to graduate from high school and preparing 
them for college and the workplace. The Administration has proposed 
three programs for a reauthorized Elementary and Secondary Education 
Act of 1965 that would support student success from the cradle through 
college and into a career. The Successful, Safe, and Healthy Students 
program would provide support for improving school safety and promoting 
students' physical and mental health and well-being, including 
activities to prevent and reduce substance use, school violence, 
harassment, and bullying. The Promise Neighborhoods program would 
provide grants for the development and implementation of effective 
community services, strong family supports, and comprehensive education 
reforms for children in high-need communities. And a reauthorized 21st 
Century Community Learning Centers program would help grantees 
implement in-school and out-of-school strategies that provide students 
and, where appropriate, teachers and family members, with additional 
time and support to succeed. We are also looking into ways to encourage 
more meaningful and productive consultation and collaboration between 
tribes, LEAs and SEAs so that the expertise of tribal leaders can be 
better used to strengthen schools that serve AI/AN students.

    The National Indian Education Study recently issued by the 
Department of Education found that on the National Assessment of 
Education Progress in both reading and math, Department of Interior 
Bureau of Indian Education students scored significantly lower than 
Indian students in public schools. For example, fourth grade BIE 
students scored 25 points lower in reading than Indian students in 
public schools and a 23 point gap among eighth grade students.
    Question 4. To what do you attribute these significantly lower 
scores?
    Answer. We find the achievement gap between BIE schools and LEA-
operated public schools very troubling, and intend to work closely with 
our colleagues in the BIE to help raise achievement in those schools. 
Although the National Indian Education Study (NIES) and the National 
Assessment of Educational Progress are not designed to identify the 
causes of differences in student achievement, the NIES found that AI/AN 
students in Bureau of Indian Education (BIE) schools are more likely to 
be English Learners and more likely to be eligible for free or reduced-
price school lunch than their peers in LEA-operated public schools. 
These and other challenges may contribute to the lower scores in BIE 
schools. Nonetheless, we know that demographics are not destiny and 
many schools all over the country are successful with students in 
similar situations.

    Question 5. How will you increase support and collaboration from 
the Department of Education to the Bureau of Indian Education to reduce 
the disparity in scores not only between BIE students and their 
counterparts in public schools, but also non-Indians in public schools?
    Answer. Recently, we have been working closely with the Department 
of the Interior (DOI) and the BIE, and we plan to build on this 
collaborative relationship. During the past year, Secretaries Duncan 
and Salazar have met twice to create an agenda for reform. DOI staff 
has assisted ED in developing ED's tribal consultation plan, and ED has 
provided increased and targeted technical assistance to BIE staff. 
Additionally, over the next few years, we plan to (1) assist BIE with 
its initiative to transform some of its lowest-performing schools into 
science, technology, engineering, and mathematics academies; (2) 
provide technical assistance to the BIE regarding its collective 
bargaining agreement; and (3) join DOI in the First Lady's Let's Move 
in Indian Country initiative.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                            Hon. Chad Smith

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    *Response to written questions received after hearing's print 
deadline will be 
retained in Committee files.*

                                  <all>

</pre></body></html>
